United States
Department of
Agriculture            Office of
                       Inspector General
Office of
Inspector
General

No. 42

NOVEMBER 1999          Semiannual Report
                       to Congress
                       FY 1999—Second Half


                Report to the          Sentenced for
                Secretary on Crop      Food Stamp Fraud
                Insurance Reform
                    Milk Deale
                   Plead Guiltrs
                   to Conspiray          Presidential Initiative:
                               cy        Operation Kiddie Care
                      in
            Convicted               Thunderbird
            Child Care me           Lodge Land
                                    Exchange
            Fraud Sche
                                           Audit of C
                   Crop Insurance                     A
                                          Finds Seri CFP
                   Coverage for Pima                  o
                                          Irregulari us
                   Cotton, Popcorn,                  ties
                   and Corn


                                                  www.usda.gov/oig
On the cover: Increasingly, our work has captured the attention of the news media. For some of our most outstanding results, we have
issued news releases and participated in news conferences for the print and electronic media. On the cover are representative excerpts
of headlines from releases issued during this reporting period, as well as titles from audit reports posted on our Internet site
(www.usda.gov/oig), which is continually being updated. See the main text for summaries of such high-impact results we are discussing
in this report.


The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, gender, religion, age, disability, political beliefs, sexual orientation, and marital or family status. (Not all prohibited bases apply to
all programs.) Persons with disabilities who require alternative means for communication of program information (Braille, large print,
audiotape, etc.) should contact USDA’s TARGET Center at 202-720-2600 (voice and TDD).

To file a complaint of discrimination, write USDA, Director, Office of Civil Rights, Room 326-W, Whitten Building, 1400 Independence
Avenue, SW, Washington, DC 20250-9410 or call (202) 720-5964 (voice or TDD). USDA is an equal opportunity provider and employer.
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                       OFFICE OF INSPECTOR GENERAL

                                           Washington D.C. 20250




                                                                                       October 21, 1999

The Honorable Dan Glickman
Secretary of Agriculture
Washington, D.C. 20250

Dear Mr. Secretary:

I am pleased to submit the Office of Inspector General's Semiannual Report to Congress summarizing
our activities for the 6-month period which ended September 30, 1999.

During this period, our audits and investigations yielded approximately $42 million in recoveries,
collections, restitutions, fines, claims established, and costs avoided. Further, management agreed to
put nearly $107 million to better use. We also identified approximately $72 million in questioned costs
that cannot be recovered. In addition, our investigations produced 208 indictments and
332 convictions.

We are again reporting on several of our Presidential initiatives, one of them for the first time. OIG has
begun a Presidential initiative to counteract smuggling of animals and plants which could endanger the
Nation's food supply through the introduction of diseases and plant pests. The number of arrests during
Operation Talon continues to climb, with notable results in Texas and Colorado. As an outgrowth of
Operation "Kiddie Care," we are emphasizing the need for regulatory and legislative changes in the
Child and Adult Care Food Program.

I extend my continuing appreciation to you, the Deputy Secretary, and the Congress for your support in
furthering our mutual efforts to improve the integrity and efficiency of the Department's programs and
operations.

Sincerely,


(Signed)


ROGER C. VIADERO
Inspector General

Enclosure
Contents


                                                                                                                                                                           Page
Executive Summary ...............................................................................................................................................            1
Summaries of Audit and Investigative Activities ................................................................................................                             4
Update of Presidential Initiatives
   Initiative Against Smuggling .................................................................................................................................            5
   Operation Talon ...................................................................................................................................................       5
   Operation “Kiddie Care” .......................................................................................................................................           6
Farm and Foreign Agricultural Services
   Farm Service Agency ..........................................................................................................................................            9
   Risk Management Agency ...................................................................................................................................               12
   Foreign Agricultural Service .................................................................................................................................           14
Food, Nutrition, and Consumer Services
   Food and Nutrition Service ..................................................................................................................................            15
   Food Stamp Program ..........................................................................................................................................            15
   Child Nutrition Programs ......................................................................................................................................          19
   Special Supplemental Nutrition Program for Women, Infants, and Children .......................................................                                          21
Food Safety
   Food Safety and Inspection Service ....................................................................................................................                  22
Marketing and Regulatory Programs
   Agricultural Marketing Service .............................................................................................................................             24
   Animal and Plant Health Inspection Service ........................................................................................................                      24
Natural Resources and Environment
   Forest Service ......................................................................................................................................................    26
   Natural Resources Conservation Service ............................................................................................................                      27
Rural Development
   Rural Housing Service .........................................................................................................................................          28
   Rural Utilities Service ...........................................................................................................................................      29
   Rural Business-Cooperative Service ...................................................................................................................                   29
Financial, Administrative, and Information Technology
   Financial Management ........................................................................................................................................            31
   Information Technology .......................................................................................................................................           33
   Administrative Operations ....................................................................................................................................           33
   Government Performance and Results Act .........................................................................................................                         34
Employee Integrity Investigations ........................................................................................................................                  36
Statistical Data
   Audits Without Management Decision .................................................................................................................                     37
   Indictments and Convictions ................................................................................................................................             47
   The Office of Inspector General Hotline ..............................................................................................................                   48
   Freedom of Information Act and Privacy Act Requests .......................................................................................                              49
Appendix I: Inventory of Audit Reports Issued
   With Questioned Costs and Loans ..................................................................................................................                       50
Appendix II: Inventory of Audit Reports Issued
   With Recommendations That Funds Be Put to Better Use ............................................................................                                        51
Appendix III: Summary of Audit Reports Released Between
   April 1 and September 30, 1999 ........................................................................................................................                  52




                                                                                                                                                                                 3
Executive Summary


This is the 42nd Semiannual Report of the Office of          As an outgrowth of Operation “Kiddie Care,” we are
Inspector General (OIG), U.S. Department of Agriculture      emphasizing the need for regulatory and legislative
(USDA), pursuant to the provisions of the Inspector          changes in the Child and Adult Care Food Program
General Act of 1978 (Public Law 95-452), as amended.         (CACFP). In our national audit report, we made
This report covers the period April 1 through                23 recommendations to eliminate the structural program
September 30, 1999.                                          flaws, strengthen internal controls, and clarify program
                                                             requirements in CACFP. We also recommended that
In accordance with the requirements of the Inspector         alternative methods of delivery be studied.
General Act, this report describes matters relating to the
Department’s programs and operations which occurred          Twenty sponsoring organizations receiving
during the reporting period. These include significant       approximately $42.3 million annually in food and
problems, abuses, and deficiencies; significant              administrative funds have been terminated from
recommendations for corrective action; prior significant     CACFP. Thirty-four individuals have pled guilty or were
recommendations unimplemented; prosecutorial                 convicted, and 29 individuals were sentenced for their
referrals; information or assistance refused; a list of      illegal activities. Among those recently convicted after
audit reports; a summary of significant reports; tables on   investigation by OIG were the president and assistant of
questioned costs and funds to be put to better use;          a day care operation in Michigan. They were found
previous audit reports unresolved; significant revised       guilty of fraud, embezzlement, conspiracy, and money
management decisions; any significant management             laundering related to defrauding CACFP of an estimated
decision disagreements; and a review of legislation and      $17 million between 1989 and 1993. The jury also
regulations.                                                 awarded forfeiture of more than $1.1 million in cash and
                                                             three properties.
Monetary Results
                                                             Investigative Efforts
During this reporting period, we issued 55 audit and
evaluation reports and reached management decisions          As reported last period, in a complex food stamp
on 56. Based on this work, management officials              trafficking conspiracy involving 20 authorized stores in
agreed to recover $10.9 million and to put an additional     New York City, food stamps worth $63 million were
$106.8 million to better use.                                fraudulently redeemed by 44 defendants. In an update
                                                             to this case and as a result of the financial investigation,
We also issued 257 reports of investigation during this      three bank officers were indicted.
period. Our investigative efforts resulted in
208 indictments, 332 convictions, and approximately          Four cotton exporters participated in a conspiracy to
$31.5 million in recoveries, fines, restitutions, claims     defraud the Commodity Credit Corporation (CCC). Two
established, and cost avoidance.                             cotton companies based in Texas pled guilty to various
                                                             charges and were fined and ordered to pay restitution
Ongoing Presidential Initiatives                             totaling $1,067,575. Two other companies based in
                                                             Tennessee have entered guilty pleas to similar criminal
We are again reporting on several of our Presidential        charges, and their sentencings are pending.
initiatives, one of them for the first time. OIG has begun
a Presidential initiative to counteract smuggling of         A Pennsylvania dairy labeled and sold as “skim milk”
animals and plants which could endanger the Nation’s         more than 19 million pounds of a “reconstituted skim
food supply through the introduction of diseases and         milk” which had been made from skim milk powder and
plant pests. In one case in Washington State, a              water. The company filed false reports which resulted
Canadian citizen pled guilty to smuggling 444 pounds of      in a $1 million loss to the Milk Market Administrator.
prohibited Asian fruit into the United States.               The three defendants, who were officers of the
                                                             company, pled guilty to conspiring to misbrand milk with
The number of arrests during Operation Talon continues       intent to defraud and mislead consumers, and
to climb, with notable results in Texas and Colorado. As     increasing the company’s profits by mislabeling the
of September 30, 1999, Operation Talon had resulted in       reconstituted skim milk. The officers were each
4,801 arrests of fugitive felons during joint OIG/State      sentenced in U.S. District Court to 3 years’ probation,
and local law enforcement operations.                        100 hours of community service, and a total fine of

                                                                                                                        1
$5,250. The Government also has a pending civil suit         Since January 1999, OIG has attended regular
against the company.                                         meetings on the implementation of the agreements to
                                                             provide food aid assistance to Russia and participated
In Nevada, the relative of a former Farm Service             on a U.S. Government Interagency Team Trip to Russia
Agency (FSA) County Executive Director (CED) was             in May 1999 as an observer. We found that, in general,
awaiting sentencing after having been convicted by a         the Russian Government officials and other related
jury in U.S. district court of receiving stolen property.    parties appeared to be committed to ensuring the
However, a Federal judge subsequently granted the            program was carried out properly, the staff of the
defendant’s motion for a judgment of acquittal. The          American Embassy was committed to providing the
U.S. Attorney for the District of Nevada is preparing an     necessary monitoring effort over the program, and a
appeal of the judge’s decision. The former CED, who          good working relationship had been established
committed suicide upon learning of our investigation,        between the Foreign Agricultural Service (FAS) and
embezzled over $1 million from CCC between May               European Union staff in Moscow. We found some
1992 and her death in October 1997.                          areas that need improvement and will provide feedback
                                                             on the Russian food aid program as it continues.
In West Virginia, nine individuals, including two
employees of the FSA Agricultural Credit Team, were          In 7 States, we found that 147 of 230 statistically
convicted for defrauding the Government of                   selected Food Stamp Program participants whose
approximately $2 million in FSA guaranteed loan funds.       Social Security number (SSN) appeared in more than
Eight of the nine individuals have been sentenced. All       1 State received food stamp benefits in more than
seven loan recipients were ordered to make full              1 State simultaneously. We projected that an estimated
restitution. The two FSA employees have resigned from        888 participants received excess food stamp benefits
Government service.                                          totaling about $394,000. We also projected that an
                                                             estimated 273 heads of household received
Three Georgia farmers believed to be the masterminds         approximately $376,000 in improper benefits because
in a disaster fraud scheme that netted them and              they certified more than 1 household in more than
12 relatives and friends approximately $1.6 million in       1 State. The Food and Nutrition Service (FNS)
unentitled disaster payments have each pled guilty to        concurred with our recommendations and findings and
one count of conspiracy to launder money.                    is conducting a study on the feasibility of establishing a
                                                             nationwide data base to prevent dual participation.
Audit Efforts
                                                             We found controls were not adequate to ensure that
We have found that reinsured companies were not              transportation and export (T&E) shipments were exiting
properly servicing catastrophic risk protection (CAT)        the country as required or that agricultural products
policies. Our review showed that the program is              were not diverted to U.S. markets en route to the ports
allowing limited-resource producers who had coverage         of exit. We identified 199 T&E shipments, 11 percent of
in the past to slip away from the program and farm           the shipments entering the country between April and
without crop protection. Generally, we question whether      November 1998, that could not be accounted for. We
the CAT Program is a viable means of protection to           further learned that, in certain instances when T&E
farmers having catastrophic crop losses. We also found       shipments arrive at the ports of exit, some truck drivers
that the Risk Management Agency (RMA) did not take           frequently hand the inspectors broken seals. In such
an active role in monitoring the transfer and servicing of   instances, there is no guarantee that some of the
CAT Program policies, a continuing concern. Without          product was not diverted to U.S. markets.
improvements in the CAT Program, producer
participation will likely continue to decline, and the
effectiveness of the program as protection against
catastrophic losses for producers, especially small and
socially disadvantaged farmers, will diminish further.




2
Our review of the internal control structure at the Office   correct the serious impediments to the effective
of the Chief Financial Officer’s National Finance Center     implementation of FFIS. However, much work remains,
(OCFO/NFC) in effect as of September 30, 1997,               and it is important that identified deficiencies be
resulted in an adverse opinion. During fiscal year           corrected in a timely manner.
(FY) 1998, in response to our audit, OCFO/NFC began
comprehensive, time-phased corrective actions, which         Year 2000 testing is essential to provide reasonable
we assisted with and actively monitored. Based on            assurance that new or modified systems process dates
improvements, we issued a qualified opinion as of            correctly and will not jeopardize an agency’s ability to
September 30, 1998, although some weaknesses                 perform core business operations after the millennium
remained.                                                    change. We found that not all of the agencies were
                                                             adequately documenting the system validation efforts or
Since 1992, we have reported on the many severe and          having Independent Verification and Validation (IV&V)
longstanding financial management problems within the        reviews performed for each of the Departmental Priority
Department. To aid in correcting these problems, the         Systems. The Office of the Chief Information Officer
Department is implementing the Foundation Financial          promptly reinstructed the agencies regarding the
Information System (FFIS) to replace the Central             importance of appropriately documenting all phases of
Accounting System (CAS) at OCFO/NFC. Our current             the testing activities and required the agencies to, at a
review disclosed that several CAS weaknesses, and            minimum, conduct an IV&V for each of the
prior decisions by OCFO management to interface              Departmental Priority Systems. Additional actions
many of the OCFO/NFC “feeder” systems, have                  regarding data exchange agreements at NFC are still to
resulted in substantial FFIS implementation problems.        be provided.
OCFO has made numerous and substantive changes to




                                                                                                                     3
    Summary of Audit Activities

Reports Issued .................................................................................................................................................        55
    Audits Performed by OIG ...............................................................................                    31
    Evaluations Performed by OIG .......................................................................                       15
    Audits Performed Under the Single Audit Act.................................................                                 4
    Audits Performed by Others ...........................................................................                      5

Management Decisions Made
  Number of Reports ........................................................................................................................................          56
  Number of Recommendations .......................................................................................................................                  348

Total Dollar Impact (Millions) .......................................................................................................................... $189.9
  Questioned/Unsupported Costs ............................................................................................. $83.1ab
     Recommended for Recovery .......................................................................... $10.9
     Not Recommended for Recovery ................................................................... $72.2
  Funds To Be Put to Better Use .............................................................................................. $106.8
a
    These were the amounts the auditees agreed to at the time of management decision.
b
    The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
    as debts due the Department.



    Summary of Investigative Activities

Reports Issued ...................................................................................................................................................   257
Cases Opened ...................................................................................................................................................     311
Cases Closed .....................................................................................................................................................   302
Cases Referred for Prosecution .........................................................................................................................             197

Impact of Investigations
  Indictments ....................................................................................................................................................      208
  Convictions ....................................................................................................................................................      332 a
  Searches ........................................................................................................................................................     114
  Arrests ........................................................................................................................................................... 1,170 b

Total Dollar Impact (Millions) .......................................................................................................................... $31.5
  Recoveries/Collections ..........................................................................................................             $5.3c
  Restitutions ............................................................................................................................    $12.0d
  Fines ......................................................................................................................................  $4.6e
  Claims Established ................................................................................................................           $2.5f
  Cost Avoidance ......................................................................................................................         $7.1h

Administrative Sanctions
  Employees ..................................................................................................................................................... 38
  Businesses/Persons ...................................................................................................................................... 1,575

a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the
  332 convictions do not necessarily relate to the 208 indictments.
b
  Includes 947 Operation Talon arrests and 223 arrests not related to Operation Talon.
c
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
d
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
e
  Fines are court-ordered penalties.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  This category consists of loans or benefits not granted as the result of an OIG investigation.




4
Update of Presidential Initiatives


We are again reporting on several of our Presidential         In one case in Washington State, a Canadian citizen
initiatives, one of them for the first time. OIG has begun    pled guilty to smuggling prohibited fruit into the United
a Presidential initiative to counteract smuggling of          States. The individual had been stopped at the Lynden,
animals and plants which could endanger the Nation’s          Washington, port of entry. During a search of his
food supply through the introduction of diseases and          vehicle, 444 pounds of prohibited Asian fruit (primarily
plant pests. The number of arrests during Operation           mangosteens, sugar apples, rambutan, and langsat)
Talon continues to climb, with notable results in Texas       were discovered hidden in the cargo area of his station
and Colorado. As an outgrowth of Operation “Kiddie            wagon as well as inside the walls of the cargo area. He
Care,” we are emphasizing the need for regulatory and         was subsequently indicted by a Federal grand jury, and
legislative changes in the Child and Adult Care Food          an arrest warrant was issued. A few months later, he
Program (CACFP).                                              was arrested when he attempted to enter the United
                                                              States at the Sumas, Washington, border crossing. At
New Presidential Initiative To Counter                        the time of his arrest, he had three cases of prohibited
Animal and Plant Smuggling                                    longans and lychees in his car. We worked this case
                                                              with assistance from the Animal and Plant Health
OIG has begun a Presidential initiative to counteract         Inspection Service and U.S. Customs inspectors.
smuggling of animals and plants. Smuggling or
shipment through deceit of produce, plants, animals,          Arrests Continue To Climb in Operation Talon
and birds is an increasingly serious problem to
American agriculture because of the pests and diseases        Operation Talon was designed and implemented by
inadvertently introduced. Such illegal activities can cost    OIG to locate and apprehend fugitives, many of them
billions of dollars in destroyed crops, undermined            violent offenders, who are current or former food stamp
agricultural markets, and lost jobs. Pests and diseases       recipients. As of September 30, 1999, Operation Talon
that threaten the United States through smuggling or          had resulted in 4,801 arrests of fugitive felons during
mislabeling include insect pests (Mediterranean fruit fly,    joint OIG/State and local law enforcement operations.
oriental fruit fly), livestock diseases (bovine spongiform    Figure 1 highlights overall results as of September 30,
encephalopathy and brucellosis), avian and plant              1999.
diseases, and noxious weeds.




              Figure 1
              Operation Talon - Total for All Phases

                      Offense               Total Arrests        Offense           Total Arrests

                       Murder                     20            Kidnapping             1,188

                 Attempted Murder                 13              Assault              1,264

                 Child Molestation                24             Robbery               1,136

                        Rape                      11              Drugs                1,187

                  Attempted Rape                   2              Other                3,136

                                                  Total Arrests: 4,801




                                                                                                                      5
In specific results, OIG agents, along with Texas State    • Fifty-four individuals have been charged with crimes.
and local law enforcement officers, arrested a total of      Thirty-four individuals have pled guilty or were
333 fugitives in a separate phase of Operation Talon         convicted, and 29 individuals were sentenced for
dubbed “Waltz Across Texas.” During this phase,              their illegal activities.
12 different Texas counties were identified by OIG.
The law enforcement felony fugitive files in these         Among those recently convicted were the president and
counties were matched with the Texas Department of         assistant of a day care operation in Michigan, and the
Human Services’ food stamp recipient records, which        owners of a sponsorship in California. In the Michigan
resulted in the location and apprehension of these         case, the operation’s president (a former Detroit school
fugitives. The matching of records began in April 1999,    board member and an attorney) and her assistant were
culminating with arrests through July 1999. The Texas      found guilty of fraud, embezzlement, conspiracy, and
Department of Human Services OIG provided                  money laundering related to defrauding CACFP of an
invaluable assistance in this operation.                   estimated $17 million between 1989 and 1993. The jury
                                                           also awarded forfeiture of more than $1.1 million in cash
Operation Talon was also successfully conducted in         and three properties. The operation employed inflated
Denver, Colorado, and the counties located in the “Front   meal-count sheets and falsified supporting
Range” of Colorado, which resulted in the arrest of        documentation. Sentencing is pending. While the
111 fugitive felons and 120 felony warrants cleared.       investigation began prior to the start of Operation
                                                           “Kiddie Care,” the results are indicative of the types and
Operation “Kiddie Care” Finds Unscrupulous                 magnitude of problems in CACFP.
Sponsors, Inherent Flaws in CACFP
                                                           In the California case, the executive director and
Operation “Kiddie Care,” our Presidential Initiative to    assistant executive director of the sponsoring
identify, remove, and prosecute unscrupulous CACFP         organization were convicted by a jury in U.S. District
sponsoring organizations (sponsors), continues to be       Court of mail fraud for illegally obtaining in excess of
successful. The focus of the Operation is now on           $85,000 in CACFP funds. Our investigation disclosed
improving program delivery and oversight. After an         that the subjects concealed their ownership of an office
interim report on Operation “Kiddie Care” was issued on    building in order to claim unauthorized rental expenses,
April 22, 1998, a formal audit report was issued in        claimed unauthorized maintenance costs, and inflated
August 1999, urging needed regulatory and legislative      other administrative expenses while operating their
changes to CACFP. Operation “Kiddie Care” will             company. Their organization sponsored nearly 1,000
probably continue through at least September 2000.         day care centers in the San Diego area. Sentencing is
Meanwhile, the cases of serious deficiencies and           pending.
criminal activities continue to mount.
                                                           We believe our findings demonstrate a need for
• To date, we have identified 40 sponsors with             dramatic changes in CACFP. In our National Report on
  program deficiencies so serious that they should be      Program Abuses in CACFP, we concluded that
  terminated from CACFP if they fail to correct the        fundamental flaws exist in the current design of the
  shortcomings. These 40 sponsors have been                program’s delivery system.
  receiving approximately $78.6 million annually in food
  and administrative funds.                                • The system encourages sponsors to seek new
                                                             providers at the expense of integrity. The more
• There are now 38 active investigations of individuals      providers a sponsor has, the more costs for
  and sponsors of CACFP.                                     reimbursement it can claim. This creates competition
                                                             among sponsors for providers and discourages
• Twenty sponsors receiving approximately                    sponsors from enforcing the CACFP requirements.
  $42.3 million annually in food and administrative
  funds have been terminated from CACFP.




6
• Sponsors are not required to maintain a reasonable       Completed audits, including those performed by CPA’s
  ratio of monitors to providers. The fewer monitors a     under contract, exhibited various deficiencies in the
  sponsor has, the more of its limited administrative      audit process. We recommended that FNS require
  reimbursements it can spend on executive salaries        California to implement a system to ensure audits are
  and benefits.                                            completed and discrepancies resolved in a timely
                                                           manner. California should also implement a quality
• Some States allow sponsors of day care centers to        control process to ensure that Government auditing
  retain food money (up to 30 percent of                   standards are met.
  reimbursements) to pay for administrative costs.
  There is no clear provision in the regulations           In terms of general oversight, we concluded that FNS
  specifying how administrative costs of these             needed to better codify its CACFP requirements. State
  sponsors should be reimbursed. (By contrast, costs       agencies and sponsors alike generally did not
  for administering day care homes are paid directly to    understand all that was required of the sponsors to
  sponsors and are separate from the homes’ food           administer the program, leading to some serious
  reimbursement.) Thus, sponsors were able to retain       deficiencies and many questionable claims.
  substantial funds that in many cases directly
  contributed to the personal enrichment of their          In our national audit report, we made 23 recommen-
  officers.                                                dations to eliminate the structural program flaws,
                                                           strengthen internal controls, and clarify program
We also questioned the oversight that States were          requirements in CACFP. In addition to such a redesign,
providing to the sponsors. We found that the California    we also recommended that FNS study alternative
State agency did not complete all required audits of       methods of delivering a meal program to children and
sponsors on time, and managers routinely left audits       adults in day care, specifically one that addresses the
unassigned. Since FY 1994-1995, the number of              problems with private, nonprofit sponsors.
uncompleted audits has steadily grown, rising to
77 percent of the total required audits in FY 1996-1997.   Figure 2 shows the status, as of September 30, 1999, of
                                                           our investigations of sponsors and providers.




                                                                                                                   7
Figure 2
Status of Investigations of Sponsors and Providers as of September 30, 1999

                                                                                                Individuals        Individuals
                                                                             Sponsors           Indicted or         Who Pled
                                               Audits                       Terminated          Named in a          Guilty or
                      Investigations  Audits     in                          From the             Criminal            Were           Individuals
       State1           in Progress Completed Progress                       Program           Information2         Convicted        Sentenced

    Alabama                                       1
    Arizona                    1                  2                                                   1                  1               1
    Arkansas                                      1
    California                 8                  9                                5                  19                 13              13
    Colorado                   1                                  1
    Florida                    2                  1                                1
    Idaho                      1                                                   1                  1                  1               1
    Illinois                                      3
    Louisiana                  2                  2                                1
    Maine                                         1                                1
    Michigan                   1                                                   1                  2                  1
    Mississippi                                                   1
    Missouri                                      1
    Nevada                                                        1
    New Mexico                 6                  1                                                   8                  1               1
    New York                   3                  1               1                1                  1                  1               1
    North
    Carolina                                      1
    Ohio                       2                  1                                1                  12                 10              10
    Oregon                                        1                                1
    Pennsylvania               3                  1                                2                  13                 13
    Tennessee                  3                                                   2                  3                  1               1
    Texas                      1
    Utah                       1                  2                                1                  4                  1
    Washington                 2                  1                                1                  2                  3               1
    Wisconsin                  1                  2                                1
                                                      1
    TOTALS                    38                32                4                20                 54                 34              29
1
 Four audit surveys were also performed in Arkansas, Illinois, and Indiana, but the findings did not warrant audit reports.
2
 An information is a formal accusation of a crime made by a prosecuting officer, as differentiated from an indictment by a grand jury.
3
 The subject died before sentencing, and the conviction was dismissed.



8
Farm and Foreign Agricultural Services


                                                             and found that four of the five producers we reviewed
 FARM SERVICE AGENCY (FSA)
                                                             had submitted false or highly questionable information
                                                             about 1998 crop-year losses. Consequently, program
The Omnibus Consolidated and Supplemental                    payments of $223,300 were not disbursed by FSA. We
Emergency Appropriations Act for FY 1999 (Public Law         also questioned the maximum-loss level established by
105-277) included $2.4 billion for the Agricultural Credit   another parish office because it did not follow proper
Insurance Fund Program Account, as well as a                 procedures in setting the rate and the level was not
supplemental $3 billion for market loss assistance,          consistent with surrounding parishes. In response to
$2.4 million for crop losses, and hundreds of millions of    the audit, that parish office changed the level to an
dollars for other help. The Commodity Credit                 amount we considered reasonable.
Corporation (CCC), a Government corporation, funds all
other program operations with estimated expenditures         Based on our findings, projected payments were not
of $8.4 billion.                                             issued, and no further action is required. Also, the
                                                             county committees at these offices were reconsidering
Potential Problems Identified in Implementation of           the maximum-loss levels they had previously set. The
the Crop Loss Disaster Assistance Program                    Louisiana FSA State office agreed with our findings and
(CLDAP)                                                      recommendations.

We have continued our efforts in monitoring CLDAP and        Noninsured Crop Disaster Assistance Program
working with FSA and the Risk Management Agency              (NAP) Loss Verifications and Controls Over
(RMA) in its implementation. During this phase of our        Payments Inadequate
review, we discussed with officials of both agencies the
following areas that needed immediate attention:             We reviewed NAP operations in California, Oklahoma,
(1) conversion of RMA’s production count from a dollar       Florida, and Georgia, sampling 98 payments totaling
amount to a measurable unit for certain crops;               about $2.4 million. We found that the reported
(2) establishment of FSA State office crop yields, rates,    production used to determine claims for losses was
and factors; (3) improvement of outreach efforts in some     submitted long after reported losses occurred and the
States; (4) processing disputed records; (5) establish-      extent of disaster loss was not, or could not be, verified
ment of maximum-loss levels; and (6) FSA county office       by FSA because FSA did not, or could not, verify
concerns about the reliability of RMA crop insurance         harvested production sold to vendors. Also, information
data. In addition, in the FSA county offices where our       used to verify harvested production for forage could not
reviews were performed, we provided FSA with updates         be verified.
on the workload resulting from CLDAP. As a result of
these discussions, the agencies were able to make            Underreported production and misrepresentations of
timely program modifications and reduce or preclude          grazing resulted in excessive payments totaling
improper program payments.                                   $89,500. Further, program payments were computed
                                                             manually, contributing to the high payment error rate of
FSA and RMA agreed with our recommendation to                32 percent, on 31 of 98 payments. The county office
develop and implement procedures and regulations that        errors resulted in overpayments of more than $200,000
require them to resolve cases where crop insurance           which were forgiven under the finality rule.
records are materially different from production records
maintained by FSA. We are now summarizing our                We recommended that FSA make field crop appraisals
fieldwork on the implementation and compliance phases        for fruits and vegetables when the method of marketing
and coordinating with FSA’s compliance staff to avoid        would prevent the verification of all production. We also
duplicative efforts.                                         recommended that the system of determining forage
                                                             production be improved to allow verification of the
Catfish Producers in Louisiana Submitted False               elements used to determine the extent of the disaster
Information To Obtain Disaster Assistance Under              loss. In addition, we recommended that FSA issue
CLDAP                                                        spot-check procedures which include a verification of
                                                             reported marketed production and that a computerized
At the request of the Louisiana FSA State office, we         system for computing payments be developed to
reviewed claims for catfish losses at one parish office      prevent such a high rate of payment errors.

                                                                                                                        9
FSA has taken action to collect the overpayments if        Livestock Assistance Program (LAP) Implemented
relief was not granted under appropriate relief            Without Problems
provisions. Procedures revised since our audit should
improve the verification of losses, and new spot-check     Under Public Law 105-277, $200 million was
requirements have been put in place for verification of    appropriated for LAP to provide direct payments to
production. FSA also agreed that a computerized            eligible livestock owners who suffered grazing losses
payment system was needed and has taken action to          due to natural disaster conditions during calendar year
implement the corrective action.                           1998. Our evaluation revealed that FSA implemented
                                                           LAP in Georgia, Montana, Nebraska, Oklahoma, and
Nearly One-Quarter of the Commodity Loans                  Texas without appreciable problems relating to county
Checked in One State Were Not Properly Secured             office or producer eligibility, program determinations,
                                                           and/or the accuracy of payments. However, we
CCC is required to support the price of various            identified two applicants in Georgia who exceeded the
commodities through loans to producers with                $2.5 million maximum gross revenue limitation and
commodities offered as collateral. We found that 16 of     could have received LAP payments totaling about
the 70 loans we reviewed were short on collateral or       $14,500. The State office agreed that the two
secured by collateral which was either out of condition    applicants were ineligible for LAP assistance and
or in danger of becoming so due to storage problems,       reminded all county offices to ensure applicants do not
which affected $763,000 in collateral. We found            exceed the gross revenue limitation. There were no
1 county office failed to take action on 13 spot checks    recommendations to the agency.
that disclosed over 42,000 bushels of missing collateral
valued at over $143,000. The county also failed to take    Farm Loan Program Loanmaking and Loan-
action against borrowers on 23 loans where the             Servicing Actions Violate New Provisions
borrowers had removed loan collateral totaling
$298,000 without prior authorization. The county office    FSA did not implement adequate controls to ensure
failed to make all required spot checks but submitted      loans were processed and servicing actions completed
reports to the State office which showed that all spot     in accordance with the Federal Agriculture Improvement
checks had been made. Our audit also disclosed that,       and Reform (FAIR) Act of 1996. We identified
in cases where unauthorized removals of collateral or      24 borrowers who had prior debt forgiveness and then
other program violations were committed by county          received direct and guaranteed loans totaling
office committee members, FSA had no procedures            $4.1 million after April 4, 1996, when the new statute
requiring referral to the State committee.                 went into effect.

We recommended that all cases involving program            We questioned the propriety of additional loans totaling
violations by county office committee members be           $20.1 million made to 196 borrowers. However, their
referred to the State Committee for a decision, the        loan application dates were not recorded in the data
applicable handbook be amended to conform with             base, so agency officials will have to review each loan
regulations, loan principal and liquidated damages         file to determine whether the application was filed
totaling over $520,000 from producers with collateral      before April 4, 1996. Further, FSA had canceled
shortages identified in our spot checks be collected by    $1.2 million through debt settlement for three Texas
the Minnesota State office, decisions be properly          borrowers who had previously received debt
documented, and monitoring over spot checks be             forgiveness of Farm Loan Program loans.
increased. The FSA national office agreed with our
recommendations and has begun implementing                 We recommended FSA collect the $4.1 million in
corrective actions. The Minnesota State office agreed      unauthorized assistance and determine the propriety of
with certain recommendations but disagreed with the        the $20.1 million in question. We also recommended
need to implement some controls. The committees in         that FSA refer the three loan-servicing cases to the
the counties we audited waived the additional liquidated   Office of the General Counsel (OGC) for an opinion on
damages which we recommended they collect from             the collectability of the $1.2 million in unauthorized
producers who violated their loan agreements; however,     assistance. Further, we recommended that FSA
the committees have been instructed by the State office    implement controls which will ensure loanmaking and
to review these decisions by December 31, 1999.            loan-servicing actions are processed in compliance with

10
current provisions. The agency agreed to recover the         routed through a bank account which the former CED
unauthorized loan assistance and implement computer          established under the guise of an official FSA account.
controls to prevent further unauthorized assistance.         The former CED diverted funds, supposedly provided to
                                                             local producers, into the unauthorized account and
Producer Payments Not Always Offset Against                  subsequently transferred the monies into other bank
Outstanding Debt                                             accounts which she and/or her relative controlled. This
                                                             investigation was conducted jointly with the Federal
We tested the application of administrative offset           Bureau of Investigation (FBI).
provisions in four Texas counties to determine whether
debts had been properly collected from FY 1998 FSA           Farmer Caught Substituting Cattle
program payments. Ten producers (24 percent)
received over $87,000 (43 percent) in payments that          A Texas farmer was sentenced to 3 years’ probation
should have been offset. Of those, six received              with 6 months’ home confinement and ordered to pay
payments totaling over $23,000 that were not offset          $33,000 in restitution. The farmer initially received a
because of communication problems in county offices,         $196,000 FSA guaranteed loan for the purchase of
and four received payments totaling over $64,000 that        dairy cattle and operating expenses during March 1995
were not offset because of administrative oversight          and defaulted on the loan during December 1995. The
problems.                                                    dairy herd, which had been purchased during March for
                                                             $1,250 per head, was liquidated during October 1995
We recommended that (1) county offices be instructed         for an average of $271 per head. Investigation showed
to offset future FSA program payments to the                 that, just prior to the liquidation, the farmer substituted
10 producers until their claims are liquidated or loan       “cull” (inferior quality) cows for his good ones.
accounts become current, (2) an administrative notice
be issued to require an updated administrative offset list   Arkansas Sheriff and Banker Indicted for Loan
be provided to FSA county offices on a periodic basis,       Fraud
(3) district directors be required to make reviews to help
ensure payments due debtors are properly offset, and         A current Arkansas county sheriff and a bank president
(4) the Texas State office be instructed to request OGC      were indicted in Federal court for making false
to review 1 case (in bankruptcy) to determine if future      statements with regard to a $121,000 FSA emergency
program payments may be offset. The agency agreed            farm operating loan made to the sheriff to pay debts
with our recommendations. Action has been taken to           owed the bank and to raise a 1996 crop. The
liquidate most of the claims; alternatively, the loan        investigation disclosed that the sheriff did not grow a
amounts are now current because the loans were               crop after the FSA loan was disbursed and used about
restructured. In one case, corrective action was not         $44,000 of the loan to pay personal debts. Also, the
taken based on advice from OGC.                              approval of the FSA loan was based on a written
                                                             statement from the bank president that the bank was
Million Dollar Embezzlement From FSA County                  going to make a loan to the sheriff, which did not occur.
Office                                                       The sheriff pled guilty and awaits sentencing, while a
                                                             trial date for the banker is pending. This investigation
In Nevada, the relative of a former FSA County               was worked jointly with the FBI.
Executive Director (CED) was awaiting sentencing after
having been convicted by a jury in U.S. district court of    Texas Farmer Pleads Guilty to Conversion of
receiving stolen property. However, a Federal judge          Mortgaged Property
subsequently granted the defendant’s motion for a
judgment of acquittal. The U.S. Attorney for the District    A Texas farmer pled guilty in Federal court to a charge
of Nevada is preparing an appeal of the judge’s              of unauthorized conversion of mortgaged property. He
decision. The former CED, who committed suicide              was placed on 3 years’ probation and ordered to make
upon learning of our investigation, embezzled over           restitution of nearly $40,000. The investigation showed
$1 million from CCC between May 1992 and her death           that the farmer unlawfully disposed of about $149,000 in
in October 1997. Most of the embezzled funds were            FSA-mortgaged property.




                                                                                                                      11
Four Companies Guilty of Violating the Upland               result, the subject and his relative received more than
Cotton Domestic User/Exporter Program                       $112,400 in unentitled 1993 and 1994 program
                                                            payments. The subject had the payments assigned to
Four cotton exporters participated in a conspiracy to       the landowner. Sentencing is pending. The
defraud CCC. Two cotton companies based in                  investigation against other involved persons continues.
Lubbock, Texas, pled guilty to charges of making false
statements and claims, mail and wire fraud, and money
                                                             RISK MANAGEMENT AGENCY (RMA)
laundering. Both companies were fined and ordered to
pay restitution totaling $1,067,575. Two cotton
companies based in Memphis, Tennessee, have                 RMA supervises the Federal Crop Insurance
entered guilty pleas to similar criminal charges, and       Corporation (FCIC) and oversees all programs
their sentencings are pending.                              authorized under the Federal Crop Insurance Act. FCIC
                                                            is a wholly owned Government corporation that offers
Three Georgia Farmers Plead Guilty to $1.6 Million          subsidized multiple-peril and revenue crop insurance
Disaster Program Fraud                                      through a private delivery system by means of reinsured
                                                            companies. RMA’s FY 2000 program income, less
Three Mitchell County, Georgia, farmers believed to be      underwriting gains, is estimated at $1.6 billion in
the masterminds in a disaster fraud scheme that netted      premiums (of which about $872 million is in the form of
them and 12 relatives and friends approximately             premium subsidy) and $1.8 billion in indemnities.
$1.6 million in unentitled disaster payments have each
pled guilty to one count of conspiracy to launder money.    Reinsured Companies Were Not Properly Servicing
The defendants filed fraudulent claims to receive FSA       CAT Policies
disaster payments for themselves and the others and
submitted fictitious seed invoices to support the           The FAIR Act authorized the Secretary to transfer CAT
fraudulent claims.                                          coverage from FSA offices to private insurance
                                                            companies. Our review showed that the program is
NINEINDIVIDUALSCONVICTEDINFARMLOANSCHEME                    allowing limited-resource producers who had coverage
                                                            in the past to slip away from the program and farm
In West Virginia, nine individuals, including two           without crop protection. The participation of limited-
employees of the FSA Agricultural Credit Team, were         resource farmers declined about 78 percent in just a
convicted for defrauding the Government of                  year, between 1997 and 1998, or the same period when
approximately $2 million in FSA guaranteed loan funds.      reinsured companies assumed sole delivery of the CAT
The loans were obligated by FSA based on false              Program. Of limited-resource producers who dropped
information submitted by the applicants. The two            from the program, over half of those still eligible for
employees of the Agricultural Credit Team assisted the      coverage had received inadequate servicing by the
loan applicants by forging signatures and/or                reinsured companies. Producers remaining in the
manipulating figures on official FSA documents for the      program tended to be those with larger acreages who
purpose of making the applicants qualify for loans.         could contribute more per policy to the reinsured
Eight of the nine individuals have been sentenced. All      companies’ underwriting gains.
seven loan recipients were ordered to make full
restitution. The two FSA employees have resigned from       Generally, we question whether the CAT Program is a
Government service.                                         viable means of protection to farmers having
                                                            catastrophic crop losses. Within our 8-State universe of
Farmer Pleads Guilty to Making False Statements             84,028 CAT Program policies, we estimate that only
                                                            about 42,000 of the transferred policies were retained
A Missouri farmer pled guilty to making false statements    by the private reinsured companies. Despite shrinking
to FSA as a result of his efforts to evade payment          enrollment, it cost over $2 to deliver the CAT Program
limitation provisions. The farmer alleged to FSA that he    for every $1 paid out to producers for crop losses
was actively farming when, in fact, he was not. He          ($506 million versus $250 million) from 1995 through
falsified FSA documents on his behalf and on behalf of      1998.
a relative, without the relative’s knowledge, in order to
illegally obtain disaster and deficiency payments. As a

12
We also found that RMA did not take an active role in       almost $616,000 of the indemnity payment of over
monitoring the transfer and servicing of CAT Program        $771,000 on 380 of the 490 acres planted in 1998.
policies, a continuing concern. RMA has not addressed       Based on historical losses on this farm, indications of
deficiencies reported since 1997, despite assurances        low-quality potato seed used, and a questionably high
that it would. In June 1998, we further reported in a       insurance payment price, the claim also raised the
management alert that reinsured companies were not          question of whether the insured planted the potatoes
providing any special servicing to limited-resource         only for the insurance indemnity.
producers and that RMA had not provided any guidance
to the companies on how to service the limited-resource     We recommended that RMA collect about $616,000 in
producers who were flagged during the transfer              overpayments, determine whether insurance coverage
process. Again, RMA did not take any action to address      should be terminated based on the prior years’ losses,
the servicing of the limited-resource producers.            and establish controls to ensure that insurance
                                                            coverage for potatoes is limited to the acreage planted
Without improvements in the CAT Program, producer           with a variety adapted to the area where planted. RMA
participation will likely continue to decline, and the      has taken actions to obtain recovery of the
effectiveness of the program as protection against          overpayment. RMA also agreed to take action to
catastrophic losses for producers, especially small and     implement the other recommendations or provide us
socially disadvantaged farmers, will diminish further.      with alternative solutions for correcting the problem.
We recommended that RMA concentrate its efforts on
improving the CAT Program policies, consider an             Questionable Crop Insurance Coverage for Three
alternative CAT Program delivery system (with limited-      Nonirrigated Crops In Texas
resource producers to be provided special servicing in
the interim), and follow up as recommended to help          A hotline complaint alleged that crop-year 1998
ensure that assigned tasks, such as the transfer of the     transitional yields (T-yields), which are based on
CAT policies, are accomplished properly.                    historical averages, for nonirrigated pima cotton in
                                                            Reagan, Glasscock, Midland, and Upton Counties,
RMA does not agree with OIG regarding the reasons           Texas, were overstated, resulting in program abuse and
cited for the dropoff rate of limited-resource producers.   financial losses to the Government. We expanded the
RMA stated that while instances of substandard service      scope of our review to include nonirrigated practices for
may have occurred, the quality of servicing CAT policies    corn in Tom Green County, Texas, and popcorn in the
by reinsured companies was not the primary factor in        Rio Grande Valley in Texas.
the reduction of participation. Therefore, instead of
requiring special servicing by the reinsured companies,     We found that the viability of raising these crops without
RMA has asked Congress for authority to develop a           irrigation is questionable and that RMA had established
program that might better meet the producers’ needs,        crop insurance yields and rates significantly higher than
but Congress has not provided this authority.               could be expected from harvesting the crops, leading to
Furthermore, RMA stated that the reinsured companies        producers without past production histories “farming the
had made efforts to service these individuals, and that     insurance program.” In August 1998, we issued RMA a
other actions by RMA, such as conducting outreach           management alert, pointing out that we agreed with
programs and monitoring CAT servicing, addressed our        RMA regional service officials that nonirrigated
recommendations.                                            insurance coverage for these crops in the three
                                                            aforementioned areas of Texas should be terminated.
Large Insurance Indemnities Paid on Noninsurable            RMA agreed to do so, starting with the 1999 crop year,
Potatoes                                                    which would result in about $20 million in savings in
                                                            1999 if all 1998 conditions remained the same.
Based on a complaint, we initiated an audit of alleged
abuse of crop insurance on potatoes by a producer in        We recommended that RMA use information from
Gaines County, Texas. We found evidence that the            established sources to set reasonable T-yields,
seed varieties purchased from a firm in North Dakota        document actuarial files to show how T-yields are
used by the insured were not of the type adaptable to       determined, eliminate the 10-percent cap provision for
produce a crop in the Gaines County area of Texas, in       T-yields RMA incorrectly established, and formulate a
violation of policy provisions. Therefore, we questioned    feedback mechanism for the reinsured companies to

                                                                                                                      13
provide input on the reasonableness and viability of        Observations on the Implementation of the Russian
newly created rates and yields for crops/practices not      Food Aid Agreements
previously produced in an area. We have reached
management decision on these recommendations.               In December 1998, the United States and the Russian
                                                            Federation signed agreements for USDA to provide
Cooperative Pays $850,000 To Settle Claim                   food aid assistance to Russia, totaling several million
                                                            metric tons of commodities. Since January 1999, OIG
A California agricultural cooperative paid over $850,000    has attended regular meetings led by FAS on the
to the Government to settle a claim by RMA/FCIC             implementation of the agreements and participated on a
regarding 1994 raisin crop insurance indemnity              U.S. Government Interagency Team Trip to Russia in
payments. The Government alleged that in 1994 the           May 1999 as an observer. The itinerary, established by
cooperative and 48 of its members and growers               FAS, limited the scope of our activities. Nonetheless,
wrongfully represented that certain raisins could not be    we found that, in general, the Russian Government
reconditioned due to rain damage. Based on this             officials and other related parties appeared to be
representation, the members/producers received              committed to ensuring the program was carried out
indemnity insurance payments for the raisins which          properly, the staff of the American Embassy was
were, in fact, reconditioned and sold. Later in the year,   committed to providing the necessary monitoring effort
the cooperative shared dividends with the members/          over the program, and a good working relationship had
producers based, in part, on the proceeds from the sale     been established between FAS and European Union
of the reconditioned raisins.                               (EU) staff in Moscow.

                                                            Our trip report stated that the Moscow Bilateral Working
 FOREIGN AGRICULTURAL SERVICE (FAS)
                                                            Group needed to better document the information it
                                                            used to make decisions as well as to follow up, and
FAS represents the interest of U.S. farmers and the         better define, coordinate, and document assistance in
food and agricultural sector abroad. Most notably, it       monitoring the food aid effort received from other
seeks improved market access for U.S. products,             Russian Ministries and EU Moscow representatives. In
carries out food aid and market-related technical           addition, FAS needed to ensure that changes to food
assistance programs, and mobilizes expertise for            distribution plans were controlled; verify its tracking
agriculturally led economic growth in developing            reports contain clear, complete, and accurate
nations.                                                    information; determine the specific level of shipment
                                                            monitoring acceptable; and confirm local Russian media
                                                            representatives were aware that food distribution
                                                            information was available on the Internet. We will
                                                            provide feedback to FAS on the Russian food aid
                                                            program as it continues.




14
Food, Nutrition, and Consumer Services


 FOOD AND NUTRITION SERVICE (FNS)                             accessed within the allotted timeframes. The State
                                                              agency had developed neither an EBT security
                                                              manual nor an administrative procedure manual, and
FNS administers the Department’s food assistance              the State agency needed to strengthen controls over
programs, which include the Food Stamp Program                access to the EBT system. We recommended that
(FSP); the Child Nutrition Programs (CNP); the Special        FNS require the State agency to (1) continue working
Supplemental Nutrition Program for Women, Infants,            to establish procedures which would allow the State
and Children (WIC); and the Food Donation Programs.           agency to delete or correct a benefit file if it contained
These programs are designed to provide people in need         incorrect data and was transmitted to the EBT
with a more nutritious diet, improve the eating habits of     processor, (2) establish and implement written
the Nation’s children, and stabilize farm prices through      procedures to monitor logon ID’s and cancel them as
the purchase and distribution of surplus food. FNS’           appropriate, and (3) take necessary action to ensure
funding for FY 1999 is $35 billion. Three FNS programs        that food stamp benefits which have not been
receive the bulk of this funding: FSP ($21 billion), CNP      accessed by households within the time guidelines
($9 billion), and WIC ($4 billion).                           are expunged.

 FOOD STAMP PROGRAM                                         • Missouri - FNS and the State agency needed to
                                                              improve controls over access to the EBT system,
                                                              specifically for persons no longer employed. Also,
Monitoring of Electronic Benefits Transfer (EBT)              State agency claim recoupment records were not
System Continues                                              internally reconciled to ensure accurate data was
                                                              reported to FNS. We recommended use of written
Currently, 40 States and the District of Columbia use         procedures to monitor logon ID’s and user access
EBT systems to deliver food stamp benefits. Thirty-four       permission and cancel them when appropriate.
of the systems have been implemented statewide,
including the District of Columbia. About 67 percent of     • Minnesota - The State agency needed to improve
all FSP benefits are being issued via EBT. During this        controls over access to the EBT system; it had not
semiannual period, we completed EBT system audit              reviewed the system to identify, and remove from the
work in Oregon, Colorado, Missouri, and Minnesota.            system, users who no longer needed access. In
The EBT systems were successfully implemented in all          addition, the contractor had not provided several
four States; however, controls needed to be                   system reports required by the contract and
strengthened in some areas.                                   necessary for the State agency to adequately monitor
                                                              the system. We recommended that the State agency
• Oregon - The State agency had not performed                 implement procedures to periodically reconcile users
  reconciliations to ensure that food stamp                   on the EBT system and to require the contractor to
  authorizations matched the food stamp settlement            provide all system reports which are required by the
  data with the Account Management Agent data at the          contract.
  Federal Reserve, resulting in a difference of
  $2.3 million. We also noted an inadequate                 FNS’ Computer-Based System Needs To Better
  separation of duties for persons authorized to            Identify Food Stamp Fraud By Retailers Using EBT
  approve food stamp benefits and those authorized
  to issue EBT cards. We recommended that the               With the implementation of EBT, FNS established a
  $2.3 million difference be reconciled and that            computerized system called the Anti-Fraud Locator
  procedures ensure separation of duties.                   Using EBT Transactions (ALERT) to monitor retailers’
                                                            EBT transactions and identify potentially fraudulent
• Colorado - A State issuance system error caused an        transactions. We determined that FNS needs to
  estimated $730,000 in food stamp benefits to be           consider new approaches to combat retailer fraud, with
  issued to about 10,000 ineligible individuals.            greater emphasis on advanced computer technology as
  Controls were not in place to correct the erroneous       opposed to the labor-intensive analyses required for the
  benefit file that had been transmitted to the             ALERT system. We identified certain deficiencies which
  contractor. Also, the State agency was not timely in      limited the system’s effectiveness. Redemption
  expunging food stamp benefits that had not been           transaction data were not available on ALERT for 30 or

                                                                                                                     15
more days after redemptions occurred, delaying any            Georgia Was Deficient in Management of the Food
possible enforcement action. Also, the system omitted         Stamp Employment and Training Program
certain low-volume retailers from its scans because they
were inaccurately classified as supermarkets, which are       The Welfare Reform Act limited the participation of able-
believed to have a low incidence of fraud. Finally, FNS       bodied adults without dependents (ABAWD) in FSP to
had not issued procedures or guidelines on how the            no more than 3 out of every 36 months. Each State is
ALERT system should be used, even though the system           required to implement an employment and training
itself is now available nationwide.                           (E&T) program to ensure that ABAWD’s are involved in
                                                              activities that will eventually lead to paid employment
We recommended that FNS study how best to                     and decreased dependency on assistance programs.
implement advanced computer technology to both                To assist States with their E&T efforts, FNS provides
simplify its monitoring of EBT retailers and to quicken its   100-percent Federal grants, of which at least 80 percent
ability to detect and remove retailers committing fraud or    must be spent to serve ABAWD’s. States are
other program violations. We also recommended that            reimbursed at fixed rates for providing E&T services to
FNS consult with ALERT users for possible                     ABAWD’s except for nine States, including Georgia,
improvements to the system and that FNS issue written         which are allowed to spend the E&T grant funds without
procedures and guidelines to assist the users in              consideration of fixed rates.
obtaining the maximum benefit from the system.
Finally, we made recommendations to correct specific          We found that errors in Georgia’s methodology for
technical problems noted with the ALERT system. FNS           allocating costs among benefiting programs led to
agreed with the findings, is taking action to correct the     overcharges to the E&T program of about $3.7 million
problems noted, and has agreed to conduct studies to          for FY 1998, and the State drew down about $922,000
identify possibilities for using advanced computer            in excess of the 20 percent for non-ABAWD related
technology in combating food stamp fraud.                     expenses.

Participants Received FSP Benefits in More Than               During the audit, we advised FNS of the improper
One State at the Same Time                                    FY 1998 charges. FNS and the State made fiscal
                                                              adjustments to the E&T accounts, totaling about
In Nebraska, Kansas, Iowa, Missouri, Indiana, Illinois,       $4.6 million. The adjustments resulted in a net recovery
and Wisconsin, we found that 147 of 230 statistically         of $2.7 million in overclaimed FNS funds. Because the
selected FSP participants whose Social Security               cost allocation deficiencies were ongoing in FY 1999,
number (SSN) appeared in more than 1 State received           FNS will have to validate the 1999 costs and recover
food stamp benefits in more than 1 State                      any overclaimed amounts. The State also did not limit
simultaneously, resulting in overissuances of $43,000.        ABAWD participation in FSP to 3 out of 36 months. A
Projected to the audit universe, an estimated 888             monthly average of approximately 466 ABAWD’s
participants received excess food stamp benefits              improperly participated in FSP for more than 3 months
totaling about $394,000. Benefits totaling an additional      and received ineligible food stamp benefits estimated at
$56,000 were paid to members of households where              $400,000 for FY 1998.
the head of household had certified more than one
household in more than one State. Projected to the            We concluded that Georgia was not a viable candidate
audit universe, an estimated 273 heads of household           for FNS’ study of alternatives to the nationally
received approximately $376,000 in improper benefits          prescribed fixed reimbursement rates, because the
because they certified more than 1 household in more          State had not managed its E&T program efficiently and
than 1 State. We recommended that FNS establish               economically. As a result of our recommendation, FNS
claims to recover the identified overpayments, review         revoked Georgia’s authorization to use alternative
the remaining participants in the universe to determine if    reimbursement procedures to claim E&T costs and
they are dual-participating in FSP, and establish a           started paying the State the fixed reimbursement rates,
nationwide data base to prevent dual participation. FNS       which will ensure economy and efficiency of the
concurred with our recommendations and findings and           program and save about $1 million for FY 1999.
is conducting a study on the feasibility of establishing a
nationwide data base.


16
We recommended that FNS recover the overclaimed                Seven Involved in Food Stamp Fraud Convicted in
costs and overissued food stamp benefits. We also              Ohio
made a series of recommendations to improve the
State’s fiscal and administrative controls. FNS agreed         A joint undercover investigation in Ohio revealed seven
with the recommendations and initiated corrective              individuals were involved in a conspiracy to traffic food
actions.                                                       stamps. They exchanged the stamps for cash, stolen
                                                               automobiles, and automobiles purchased for the
Individuals Plead Guilty to Food Stamp and EBT                 subjects, which were later falsely reported as stolen to
Fraud in Maryland                                              local law enforcement and the insurance companies.
                                                               Food stamps, $95,400 worth of automobiles, numerous
Following his conviction for trafficking in food stamp         automobile parts, several illegal weapons, and cocaine
benefits, the owner of a liquor store in Baltimore,            were seized from the individuals. The seven were
Maryland, surrendered his EBT terminal to an OIG               convicted on various charges and sentenced to terms
agent at his sentencing and was disqualified by FNS            ranging from probation to 5 years in State prison.
from participating in FSP. However, the store owner            Forfeiture of all cash, weapons, and automobiles was
and his wife continued to traffic by telephoning to three      ordered by the court. One of the seized vehicles is
authorized store owners/employees additional EBT card          being used by USDA. This case was worked jointly with
numbers, personal identification numbers (PIN), and the        the Ohio Organized Crime Commission, the FBI, the
amounts of the illegal transactions. Illegal transactions      Montgomery County Sheriff’s office, and the Moraine
with more than 2,900 food stamp recipients who visited         Police Department.
the unauthorized liquor store totaled over $544,000.
The owners and an employee of the three authorized             International Fugitive Apprehended
stores, along with the liquor store owner and his wife,
have pled guilty.                                              A Warren, Ohio, retailer, after being charged in
                                                               December 1996 with conspiracy to launder $2.2 million
Store Owner Flees after Jury Conviction                        over 4 years, fled the country to avoid prosecution.
                                                               Investigation by OIG and Internal Revenue Service
The owner of a small retail grocery store in Baltimore,        (IRS) agents discovered the retailer had reentered the
Maryland, was found guilty of illegally trafficking            country in February 1999. He was discovered to be in
approximately $700,000 in food stamp benefits between          Little Rock, Arkansas, attempting to buy new food
1996 and 1998. The owner subsequently slipped out of           stores, where OIG agents arrested him. He pled guilty
his alarm bracelet while being monitored by pretrial           and was sentenced to 5 years’ imprisonment. This
services personnel and failed to appear in court for           case was worked jointly with the IRS Criminal
sentencing. His lawyer informed the court that he did          Investigation Division.
not know the whereabouts of his client. We believe he
has fled to Morocco and is inclined, given the pending         Store Owner Convicted of Fraudulently Redeeming
court action, not to return to the United States. The          $600,000 in USDA Food Stamps
owner was sentenced “in absentia” to 4 years’
incarceration, 2 years of supervised release, and              The owner of a food store pled guilty to redeeming
$700,000 in restitution. A second subject in this case         approximately $600,000 in food stamps over 9 months.
has also been charged and is a fugitive.                       The owner used 3 different aliases to open 15 bank
                                                               accounts around Chicago. The owner deposited the
$63 Million in New York City Food Stamp Fraud                  illegally obtained food stamps he had received from
                                                               other merchants and food store owners in exchange for
As reported last period, in a complex food stamp               cash. Record analysis showed that, over 4 months, the
trafficking conspiracy involving 20 authorized stores in       owner deposited more than $223,000 in food stamps for
New York City, food stamps worth $63 million were              another store operator who was not authorized to
fraudulently redeemed by 44 defendants. In an update           accept food stamps. The owner was sentenced to
to this case and as a result of the financial investigation,   serve 10 months in prison, followed by 3 years’
three bank officers were indicted by the U.S. Attorney’s       supervised release, and ordered to pay restitution of
Office for the Southern District of New York for bank          $525,600.
fraud and stealing public funds. Indictments of
additional bank officials are anticipated.
                                                                                                                     17
Store Manager Convicted of Conspiring To                      Street Gang Members Convicted in Welfare Office
Fraudulently Redeem $1.2 Million in Food Stamps               Burglaries

The owner of a food store and his brother were indicted       Our investigation resulted in the arrests and convictions
for conspiring to fraudulently redeem more than               of 14 individuals for their involvement in the theft of
$1.2 million in food stamps over 10 months. The               $728,000 in food stamps from 4 county welfare offices
brothers opened eight bank accounts around Chicago            in Indiana. Sentences ranged from 1 year of probation
and deposited the illegally obtained food stamps that         to 20 years in prison, with $1.1 million in restitution. The
were received from other merchants and food store             investigation showed street gang members stole the
owners in exchange for cash. A record analysis                food stamps from county welfare offices and traded
revealed that approximately $295,000 of the over              about $500,000 worth of food stamps to other gang
$1.2 million redeemed through the store resulted from         members for cocaine, marijuana, firearms, and cash.
legitimate sales. The owner, who fled the country             The remaining food stamps were traded to two
prior to sentencing on bank fraud charges, is a fugitive.     individuals for cash, marijuana, firearms, and
His brother was convicted and sentenced to serve              explosives. This investigation was worked jointly with
37 months in prison, followed by 3 years’ supervised          the Indianapolis Safe Streets Gang Task Force (which
release, and ordered to pay restitution of $1 million.        includes the FBI; the Bureau of Alcohol, Tobacco, and
                                                              Firearms; and the Indianapolis Police Department); the
Store Owner and 17 Others Convicted in Massive                IRS Criminal Investigation Division; the Indiana State
Food Stamp and Narcotics Trafficking Operation                Police; the Kentucky State Police; the Marion County
                                                              Sheriff’s office; and USDA’s Forest Service.
The investigation of a major Detroit, Michigan, narcotics
and food stamp trafficker and his lieutenants resulted in     Miami Store Owner Ordered To Pay Multimillion
the arrest and conviction of 18 members of the                Dollar Penalties for Fraud
organization. The head of the organization had
trafficked narcotics for over 20 years in the area and        In Miami, Florida, the owner of a small retail grocery
was seemingly “untouchable” until he mentioned that he        store redeemed approximately $5.8 million in food
was interested in buying food stamps. He insulated            stamps over 4 years. Evidence was developed during
himself from drug trafficking by never conducting any         the investigation that the store owner was redeeming
deals himself; he would deal only through his                 food stamps for several other grocery stores in South
lieutenants. During the course of the investigation, he       Florida which were not authorized to participate in FSP.
bought $23,000 in food stamps directly from an                During 1997, the owner’s total food stamp redemptions
undercover officer. After the food stamp deals, he            exceeded the store’s food sales by $752,600. In April
agreed to the sale of narcotics to the officer, after which   1999, a U.S. District Court judge issued a $2.2 million
he was arrested. He was released on bond and shortly          summary civil judgment against the owner for violations
after was murdered, gangland style, along with his            of FSP. In addition, FNS assessed a $10,000 civil
girlfriend. The rest of his organization had been             money penalty against the store owner and revoked his
arrested at the same time in a city-wide drug sweep.          authorization to accept food stamps.
Their convictions for drug and/or food stamp trafficking
led to sentences which ranged from a maximum of life          Hawaii Food Stamp Trafficking Ring Prosecuted
in prison without parole to a minimum of 5 months in
prison. The store owner involved pled guilty to food          In Hawaii, five individuals involved in an organized food
stamp and drug trafficking but failed to appear for           stamp trafficking operation in Honolulu have pled guilty
sentencing and is a fugitive. The neutralization of this      to food stamp trafficking, conspiracy, money laundering,
major drug trafficking enterprise has significantly           and tax evasion. An additional 15 individuals and
stemmed the flow of narcotics in the Detroit area. This       4 corporations are awaiting trial. Our investigation
investigation was conducted jointly with the Organized        disclosed that the corporations’ officers financed large-
Crime Drug Enforcement Task Force, composed of                scale purchases of food stamps by “runners” who, in
OIG, the Drug Enforcement Administration, the IRS, and        turn, resold the food stamps to various other retailers as
the Detroit Police Department.                                well as those financing the operation. The defendants




18
pleading guilty admitted to having trafficked and
                                                             CHILD NUTRITION PROGRAMS
laundered in excess of $200,000 in food stamp
coupons.
                                                            Inadequate Storage Jeopardizes USDA-Donated
This investigation was conducted jointly with the FBI,      Commodities
the Honolulu Police Department, and the U.S.
Immigration and Naturalization Service, with additional     In addition to cash reimbursements for meals served
assistance provided by the U.S. Postal Inspection           under the National School Lunch and Breakfast
Service and the U.S. Customs Service (Customs).             Programs (NSLP and SBP), schools are entitled to
                                                            receive USDA-donated commodities such as meats,
Six Sentenced in $2 Million EBT Food Stamp                  fruits, vegetables, grains, and dairy products. State
Benefits Fraud                                              agencies are responsible for storing the commodities
                                                            under conditions prescribed by FNS until they are
Six family members were sentenced in Houston, Texas,        distributed to the schools. For each commodity, FNS
for food stamp fraud, money laundering, conspiracy,         has established a “Best If Used By” (BIUB) date;
and criminal forfeiture. A 2-year investigation disclosed   commodities retained in storage significantly past this
that the subjects illegally accepted and redeemed in        date may be of reduced quality and nutritional value.
excess of $2 million in food stamp benefits via EBT.        We evaluated applicable procedures and practices in
The scheme involved the sale of benefits for cash by        Illinois, Wisconsin, and California.
recipients at two unauthorized storefront locations. The
employees of the storefront locations would call two        • Of the 241 various commodities we reviewed, all or
authorized stores and read the numbers imprinted on           portions of 46 commodities which were valued at
the recipient’s EBT card, the corresponding PIN, and          over $560,000 had been stored in State agency
the transaction amount to employees at the authorized         warehouses beyond their established BIUB dates.
stores. The employees at the authorized stores would          Warehouses did not ensure that the oldest
then manually enter the information into the point-of-        commodities were shipped first, and State agencies
sale device, which gave the appearance that the               did not always limit their commodity orders to
recipient had actually purchased groceries at the             quantities that could be used within a reasonable
authorized retailer. This investigation was worked            period of time. Furthermore, State agency and FNS
jointly with the Texas Department of Human Services           regional officials did not always use the BIUB dates
OIG, the IRS, and the U.S. Secret Service. The                as a guideline for distributing commodities.
sentences of the six subjects ranged from 27 months’
imprisonment to 97 months’ imprisonment. In addition,       • Although frozen commodities are required to be
$2 million was ordered in restitution, individually and       stored at zero degrees Fahrenheit or below, some
severally.                                                    commodities at the warehouse which handles frozen
                                                              commodities for 75 percent of the schools in Illinois
Jail Time Handed Down for Trafficking in EBT                  were being stored at or above 20 degrees
Benefits for Drugs                                            Fahrenheit. Some freezers at that warehouse were
                                                              not designed to freeze foods at any temperature
Two subjects were sentenced in Beaumont, Texas,               below zero degrees even under optimum conditions.
for trafficking in EBT food stamp benefits in exchange        We noted similar, though less serious conditions, at
for “crack” cocaine. One subject was sentenced to             other warehouses in both Wisconsin and California.
46 months in jail, and the other subject was sentenced        The California warehouses were not always taking
to 18 months in jail. These investigations were worked        daily temperature readings in the freezers to ensure
jointly by OIG and the Cleveland, Texas, Police               proper storage conditions.
Department.




                                                                                                                      19
We recommended that FNS review and update its                  requirement (funding of $11.5 million is subject to
existing BIUB dates and require that States use them as        repayment to FNS). Further, in FY 1997 it understated
a basis for distributing commodities. We also                  the amount of NSLP and SBP unliquidated obligations
recommended that FNS require States to order                   by $23 million and overstated its total outlays by
commodities in quantities that can be used within the          $942,000. In addition, its computerized accounting
periods established by the BIUB dates and that                 system incorrectly classified 1997 NSLP and SBP
warehouses use the first-in-first-out method when              expenditures of $30 million, did not record and report
distributing commodities. Finally, we recommended              unliquidated obligations of up to $23 million, and did not
FNS require State agencies and warehouses to improve           consistently account for all costs, because appropriated
their existing controls to ensure commodities are stored       funds were accounted for on a school year basis while
at the proper temperatures.                                    FNS reimbursement is accounted for on a fiscal year
                                                               basis.
FNS agreed with our findings and is undertaking a
major overhaul of its procedures for commodity                 We recommended that FNS require the Puerto Rico
distribution. This will include revised BIUB dates and         Department of Education to budget, appropriate funds,
requirements for increased monitoring by State                 and account for its direct liability for feeding all children
agencies.                                                      free of charge, separate and distinct from all other
                                                               NSLP and SBP costs. FNS needs to determine
Puerto Rico Department of Education’s School                   whether the failure to meet the matching requirement
Lunch Financial Management System Continues To                 should result in recall of funding, totaling $11.5 million,
Be Inadequate                                                  and recover the funds if deemed appropriate. FNS
                                                               should also require the Department of Education to
Our current audit disclosed that the Puerto Rico               develop and implement written instructions for preparing
Department of Education still has not developed a              financial status reports and revise its computerized
sound financial management system to ensure accurate           accounting system to accurately record and report all
financial accountability and reporting, as recommended         NSLP and SBP costs and unliquidated obligations by
in 1992. State agency and school food authority                school year and fiscal year. FNS is in agreement with
functions had been separated; State agency                     the recommendations and is awaiting the Department of
expenditures and State administrative expense                  Education’s response before issuing a letter of
matching requirements were accounted for in separate           determination on the audit results.
cost centers. However, FNS meal reimbursement and
Department of Education appropriated funds used to             Error Rate in NSLP Eligibility Leaves Program
pay for school food authority functions continued to be        Vulnerable to Abuse
accounted for as State agency revenue and
expenditures. We concluded that the financial status of        In 1997, we reported that many school food authorities
the programs was materially misstated, limiting the            (SFA) participating in NSLP in Illinois were not
ability of FNS and Department of Education officials to        increasing their sample sizes when they found high
make sound fiscal decisions or effectively manage              percentages of households reporting incorrect incomes
program expenditures.                                          or failing to respond to verification requests.
                                                               Regulations allow, but do not require, SFA’s to expand
The Department of Education was appropriated                   their sampling when they find high error rates. We
$10 million less than needed to pay all liabilities incurred   projected that SFA’s in Illinois were improperly
during school year 1997, overstated its expenditures           authorized to receive free or reduced-price meals which
toward the State revenue matching requirement in               cost USDA $31.2 million per year. This is 18.9 percent
school year 1997 by over $61 million, and                      of the amount received by Illinois in 1995 as
did not meet its 1997 State revenue matching                   reimbursement for NSLP.




20
We recommended that FNS establish a threshold for              SPECIAL SUPPLEMENTAL NUTRITION
the maximum percentage of errors allowable during the          PROGRAM FOR WOMEN, INFANTS, AND
verification process and require additional sampling           CHILDREN (WIC)
when that percentage was exceeded. FNS responded
that it did not want to require additional verifications
based on our audit results in only one State.                 Custodian Pleads Guilty to Theft of WIC Vouchers
Subsequently, at our request, FNS contacted State
agencies and obtained error-rate information for major        A custodian at a WIC clinic in Dallas, Texas, through lax
cities to assist in making a decision on our                  security measures, was able to steal 359 WIC food
recommendations. The information gathered by FNS              vouchers valued at $19,830. The stolen WIC vouchers
reinforced our findings in Illinois. The average error rate   were redeemed for baby formula and then sold at a
based on the data gathered was 26 percent—exceeding           discount to neighborhood grocery stores. The
the error rate reported in our Illinois audit. FNS believes   custodian was sentenced to 18 months in prison,
that any regulatory change must be supported by               followed by 3 years’ supervised release. Restitution of
testing alternative approaches. Therefore, FNS has            $1,700 was also ordered.
requested $2 million in each of its FY 2000 and 2001
budgets so that it can test several alternatives to current   Department of Health Employee Pleads Guilty to
requirements while still minimizing additional                Theft
administrative burdens it would have to place on
program cooperators. We have accepted FNS’                    In Georgia, a Department of Heath clerk responsible for
management decision and proposed evaluation plan.             administering WIC pled guilty to creating $49,945 in
However, because of the high error rates identified, we       fraudulent WIC vouchers and converting them to her
consider this program to be highly vulnerable to abuse,       own use. This investigation was conducted jointly with
and we will continue to monitor it closely until additional   the Georgia Department of Human Resources, Office of
verification procedures have been implemented.                Fraud and Abuse. The investigation disclosed that 77
                                                              fictitious infants, including 21 sets of twins, were created
                                                              by the clerk in a scheme to defraud WIC from October
                                                              1994 to August 1996. The clerk issued 1,073 fraudulent
                                                              WIC vouchers and redeemed them for infant formula,
                                                              which she resold to small retail grocery stores in the
                                                              Atlanta area. While the investigation was in progress,
                                                              the clerk resigned from her position. As a result of
                                                              entering a guilty plea, she was sentenced to 1 year of
                                                              incarceration, followed by 3 years of supervised release,
                                                              and ordered to pay $47,945 in restitution.




                                                                                                                       21
Food Safety


 FOOD SAFETY AND INSPECTION SERVICE                          We recommended that FSIS (1) assign unacceptable
 (FSIS)                                                      ratings to State programs with documented serious and
                                                             widespread sanitation deficiencies at plants, (2) use its
                                                             comprehensive review results to identify and provide
FSIS administers a comprehensive system of inspection        alternatives to correct problems noted in the States’
laws to ensure that meat, poultry, and egg products          food safety inspection programs, and (3) require the
moving in interstate and foreign commerce for use as         States to provide annual reports that assess the
human food are safe, wholesome, and accurately               effectiveness of the State inspection programs in
labeled. FSIS’ appropriation for FY 1999 totaled             meeting the food safety standards required by their
approximately $617 million.                                  State Performance Plans. FSIS concurred with our
                                                             conclusions and recommendations and agreed to
FSIS Oversight of State-Operated Meat and Poultry            implement corrective actions.
Inspection Programs Needs Further Improvements
                                                             Arkansas Meat Processing Plant Investigated for
Under the State-Federal Cooperative Inspection               Contamination With Listeria Monocytogenes
Program, individual States are authorized to inspect         Bacteria
meat and poultry products sold solely within their
boundaries, provided that their food safety requirements     As a result of a joint investigation with FSIS Compliance
are at least equal to those of the Federal Government.       and OIG, a total of about 30 million pounds of potentially
FSIS retains an oversight role and provides assistance.      tainted hot dogs and sandwich meat was deemed unfit
Our current audit work was performed at FSIS                 for human consumption and ordered to be destroyed.
headquarters, the State meat-inspection offices for          In December 1998, plant operations at an Arkansas
several States, and at 18 of the 613 State-inspected         meat processing plant were suspended by FSIS for
plants.                                                      sanitation problems dealing with listeria monocytogenes
                                                             (LM) bacteria. The plant produced about 600,000
Although FSIS has taken significant steps to correct the     pounds of product per week, which consisted of
problems identified in a previous review, additional         frankfurters (hot dogs) and cold cuts. The plant did
improvements are still needed. FSIS needs to ensure          business with large food stores and the military. On
that acceptable ratings are not given to State programs      January 22, 1999, the plant voluntarily recalled all its
with identified sanitary deficiencies or to States that do   product produced from July 1998 to December 1998,
not take adequate corrective actions to address serious      about 30 million pounds of potentially tainted hot dogs
sanitation problems. FSIS further needs to strengthen        and sandwich meats. Subsequently, the recalled
its comprehensive review program and develop                 product was deemed unfit for human consumption and
recommendations to place greater emphasis on                 was destroyed. The criminal investigation by OIG is
identifying and correcting the cause of problems found       continuing.
at State-inspected establishments.




22
The Misbranding of Meat Results in Significant                            One Person Indicted After Needles Found in Food
Fines and Restitution
                                                                          An OIG investigation of sewing needles found in ground
In an update to a Philadelphia, Pennsylvania, case                        beef, fruit, and bakery items (see photo) in an Iowa
previously reported, two owners of a large meat                           grocery store led to the indictment of one individual on a
company were sentenced for skimming $2.7 million                          Federal criminal charge of tampering with food product.
from the company cash register and concealing this                        Eighteen OIG criminal investigators, in cooperation with
income in their tax returns, as well as misbranding                       the local police department, worked round-the-clock for
cheaper cuts of beef and pork. The two owners were                        up to 4 weeks in an effort to identify the individual
ordered to pay a total of $1.5 million in restitution and                 responsible for this serious threat to the health and
fined $724,000. In addition, one owner was sentenced                      safety of the area population. Due to the immediate
to serve 60 days’ imprisonment, the other 1 year of                       response of our investigators, no injuries resulted from
home confinement, and each 5 years’ probation. This                       these criminal acts. A trial date has yet to be set.
investigation was worked jointly with the FBI, IRS, and
Defense Criminal Investigative Service.




     One of the sewing needles was found in this piece of meat. Sioux City (Iowa) Police Department photo.




                                                                                                                                 23
Marketing and Regulatory Programs


 AGRICULTURAL MARKETING SERVICE                                 certified that the product met the domestic content
 (AMS)                                                          requirements. The company agreed to pay $400,000,
                                                                with the $100,000 balance forgiven upon satisfactory
                                                                completion of a compliance program. This investigation
AMS enhances the marketing and distribution of                  was worked jointly with AMS.
agricultural products by collecting and disseminating
information about commodity markets, administering
marketing orders, establishing grading standards, and            ANIMAL AND PLANT HEALTH INSPECTION
providing inspection and grading services. AMS’                  SERVICE (APHIS)
funding level for FY 1999 is approximately $243 million.
                                                                Through inspections, APHIS protects the Nation’s
Officers of Pennsylvania Milk Dealer Plead Guilty to            livestock and crops against diseases and pests and
Defrauding the Public                                           preserves the marketability of U.S. agricultural products
                                                                at home and abroad. APHIS’ obligations for FY 1999
A Pennsylvania dairy labeled and sold as “skim milk”            are estimated to total over $590 million.
more than 19 million pounds of a “reconstituted skim
milk” which had been made from skim milk powder and             Controls Over Transportation and Export Shipments
water. From January 1993 through December 1997,                 Need To Be Strengthened
the company filed 60 false monthly reports with the Milk
Market Administrator (MMA), AMS, which resulted in a            The North American Free Trade Agreement (NAFTA)
$1 million loss to the MMA. The three defendants, who           allows transportation and export (T&E) shipments of
were officers of the company, pled guilty to conspiring to      agricultural products to pass through the United States
misbrand milk with intent to defraud and mislead                en route to other countries. In some instances, certain
consumers, and increasing the company’s profits by              of these commodities would not otherwise be allowed
mislabeling the reconstituted skim milk. It was sold to         into the country because they would not pass USDA
Federal institutions, local school districts participating in   inspection requirements. To minimize this threat, T&E
NSLP, and the general public. The company also                  shipments are sealed by APHIS inspectors prior to
routinely underfilled milk containers, mixed old milk with      entering the country. Shipments are required to leave
new milk and gave it a new freshness date, and placed           the country at a specified port of exit within a given
false freshness dates on milk during production. The            timeframe. At the exit port, the seals are inspected to
officers were each sentenced in U.S. District Court to          ensure that the shipments are intact and no products
3 years’ probation, 100 hours of community service, and         have been offloaded. T&E shipments are bonded and
a total fine of $5,250. The Government also has a               tracked by Customs, and this bond is to be forfeited if
pending civil suit against the company. This was a joint        the shipment does not exit the country as required.
investigation with the MMA, AMS Compliance staff, and           APHIS’ Plant Protection and Quarantine is responsible
the Office of Criminal Investigation for the U.S. Food          for implementing controls at the 33 border crossings,
and Drug Administration (FDA). Sentencing is pending.           along with 26 seaports and international airports.

Fruit Juice Producer Agrees to $500,000 Settlement              We found that APHIS did not have adequate controls to
                                                                ensure that T&E shipments were exiting the country as
A Buffalo, New York, fruit juice producer agreed to a           required or that agricultural products were not diverted
$500,000 settlement with USDA. The agreement was                to U.S. markets en route to the ports of exit. We
reached to avoid litigation under the False Claims Act.         identified 199 T&E shipments, 11 percent of the
Between 1994 and 1997, the company entered into                 shipments entering the country between April and
contracts with AMS to provide canned fruit juice for            November 1998, that could not be accounted for.
distribution to needy families and other related                Although APHIS indicated that it was aware of the
programs. The contracts contained a domestic content            missing shipments, no action was taken to resolve their
clause, which required the juice to be 100-percent              status since APHIS relied on Customs to follow up on
grown, produced, and packaged in the United States or           missing shipments. We further learned that, in certain
Puerto Rico. The company produced juice which                   instances when T&E shipments arrive at the ports of
contained foreign grape juice concentrate and falsely           exit, some truck drivers frequently hand the inspectors


24
the broken seals. In such instances, there is no             be taken, (2) coordinate more closely with Customs in
guarantee that some of the product was not diverted to       monitoring T&E shipments, and (3) assess fines against
U.S. markets.                                                program violators and seek authority to levy fines in
                                                             excess of the current $1,000 limit. APHIS agreed with
Review of APHIS’ enforcement policies and procedures         our recommendations and is implementing corrective
revealed APHIS’ instructions do not stipulate that           actions.
monetary penalties be assessed against brokers whose
T&E shipments do not exit the country as required or         Dog Kennel Owner Pleads Guilty to Threatening a
who have tampered with APHIS seals. No fines were            Federal Official
assessed against any of the brokers responsible for the
199 aforementioned shipments. The only monetary              In North Dakota, a dog kennel owner pled guilty to a
penalty to the brokers is the forfeiture of the Customs      felony count of threatening to assault an APHIS Animal
bond, and, according to Customs officials, the amounts       Care inspector in an attempt to prevent the inspector
forfeited are frequently reduced after initial assessment.   from performing the required inspections at the kennel.
                                                             During the interview with OIG, the subject admitted that
We recommended that APHIS (1) strengthen its                 he had threatened to kill the inspector, and then
controls to track T&E shipments and to document              proceeded to make another threat. Sentencing is
instances where official seals are tampered with so that     pending.
appropriate investigative and enforcement actions can




                                                                                                                   25
Natural Resources and Environment


 FOREST SERVICE (FS)                                                 We reviewed the reservation that was added to the
                                                                     deed and found that it did not sufficiently clear FS of
                                                                     liability regarding maintenance of the improvements.
FS has the responsibility for providing leadership in the            The reservation provided that if its terms were not
protection, management, and use of the Nation’s                      complied with, the improvements would revert to FS
grassland and aquatic ecosystems on public and private               ownership. The reservation did provide that the
lands. The National Forest System covers 191.8 million               reservation holder would bear the cost of removing the
acres of forest, grass, and shrub lands. FS also                     improvements, but we subsequently found that their
cooperates with State and local government and private               removal might not be possible due to the historical
landowners in the management of forest resources and                 status conferred on them by the Nevada State Historical
provides leadership in forest and rangeland research.                Preservation Office.
The FY 1999 budget for FS is projected at $3.4 billion,
while receipts generated through timber sales and other              During our review, UNR abandoned plans to buy the
activities are estimated at about $850 million.                      existing improvements and build a research facility
                                                                     adjacent to them. We were notified that a nonprofit
Unresolved Issues Could Expose FS to Significant                     group, the Thunderbird Preservation Society, would buy
Liabilities in Pending $50 Million Land Exchange                     the improvements. The Society was recently formed
                                                                     with the financial assistance of the private firm
We reviewed the land exchange of the Thunderbird                     exchanging the land with FS.
Lodge estate at Lake Tahoe, which includes about
140 acres of lakefront property, a stone mansion, and                FS could be exposed to a total liability of up to $3 million
assorted buildings, appraised at about $50 million.                  if it proceeds with the land exchange without resolving
Because FS’ mission to preserve wilderness areas does                who is responsible for maintaining the improvements.
not include maintaining improvements in those areas,                 We recommended that, before accepting title to the
FS required that a reservation be added to the deed                  Thunderbird Lodge estate, the private firm provide
which would sever the building improvements from the                 sufficient endowment funds (approximately $6 million) to
land before completion of the exchange. In the case of               FS for maintaining the historical structures for 40 years
the aging structure on the Thunderbird estate (see                   (the term of the current reservation) or restore the land
photo), the cost of maintenance is conservatively                    to its original natural state. Our evaluation also
estimated at $300,000 per year. To alleviate FS’                     questioned the feasibility of the proposed use by UNR
concerns regarding maintenance, the private firm                     of the Thunderbird site because of problems associated
exchanging the land to FS arranged for the University of             with building expansion proposed by UNR, required
Nevada, Reno (UNR), to purchase the improvements                     water rights, and additional sewer facilities needed.
for use as a research facility.
                                                                     FS stated that our report was instrumental in assisting
                                                                     its regional staff in their coordination with the proponent,
                                                                     OGC, and the Bureau of Land Management. As a
                                                                     result, additional terms and conditions were added to
                                                                     the deed reservation. FS has concurred with all
                                                                     recommendations except for the establishment of an
                                                                     endowment fund. Instead, FS, with OGC’s
                                                                     concurrence, has required that the proponent furnish a
                                                                     10-year performance bond in the amount of $2.3 million
                                                                     to cover the maintenance and the eventual removal of
                                                                     the improvements should the private party default on
                                                                     the current agreement relating to the Thunderbird Lodge
                                                                     improvements. We agreed with all the management
                                                                     actions proposed by FS to resolve our recommendations.

The cost of maintenance for the aging structure on the Thunderbird
Lodge estate is conservatively estimated at $300,000 per year. OIG
photo.



26
 NATURAL RESOURCES CONSERVATION                           Fraudulent Contract Appeal Results in a Conviction
 SERVICE (NRCS)
                                                          In Harrisburg, Pennsylvania, the superintendent of a
                                                          major construction company pled guilty to criminal
NRCS provides technical assistance through local          charges regarding the submission of false documents to
conservation districts to individuals, communities,       USDA and the Board of Contract Appeals. A contractor
watershed groups, and tribal governments; Federal,        entered into an agreement with NRCS for the
State and local agencies; and others. The agency’s        construction of the Lost River Watershed flood control
work focuses on erosion reduction, water quality          project in West Virginia. During the construction in 1994
improvements, wetlands restoration and protection, fish   and 1996, the contractor incurred additional expenses
and wildlife habitat improvement, range management,       of over $5.9 million in order to repair an emergency
stream restoration, water management, and other           spillway. The contractor claimed NRCS officials were
natural resource problems.                                aware of the emergency repairs and had approved
                                                          these additional expenses. NRCS denied the
Waste Management Systems in Ohio                          contractor’s request, which resulted in an appeal to the
                                                          USDA Board of Contract Appeals. One of the
In response to a request from a Congressman based on      contractor’s supporting documents in the appeal was
concerns raised by a constituent, we reviewed selected    the superintendent’s diary, indicating dates,
animal waste management systems in Ohio. Assisted         conversations with NRCS officials, and approvals for
by two independent experts, we reviewed six projects      additional expenses. However, forensic examination of
and found that NRCS had designed and promoted             the diary revealed that some entries were actually made
environmentally safe animal waste management              from 10 to 16 months after the date of the entry.
systems (AWMS), following generally accepted
engineering standards. We also found that the former      The superintendent was sentenced to 1 year of
NRCS Ohio State Conservationist had inappropriately       probation, ordered to pay restitution of $18,000 to cover
approved a payment of $28,000 to two farmers in           the cost of prosecution, and fined $6,000. The
June 1996, after they and their representatives           contractor entered into an agreement with NRCS to
complained that their NRCS-designed AWMS did not          dismiss the $5.9 million claim.
function properly. NRCS decided to settle the farmers’
claim rather than spend funds to contest a possible
court case. While NRCS was authorized to fix the
nonfunctioning system if the flaw was found to be a
result of NRCS’ design, NRCS was not authorized to
expend funds to settle a court case. We did not
recommend that the farmers repay the $28,000
because NRCS made the offer and there was no
wrongdoing on the part of the farmers.




                                                                                                                 27
Rural Development


Rural Development programs are designed to meet the         unsupported charges by the maintenance company.
diverse needs of rural communities with a variety of        The agency has concurred with the recommendations.
loan, loan guarantee, and grant programs, plus
technical assistance, cooperative development, and          Management Company Misused Reserve and
rural housing assistance. Rural Development loan            Tenant Security Deposit Funds
programs have an outstanding portfolio of direct and
guaranteed loans totaling $79 billion.                      Prompted by concerns about how a general partner and
                                                            a management company were managing and
                                                            maintaining 11 properties, the Rural Development
 RURAL HOUSING SERVICE (RHS)
                                                            Texas State Director asked OIG to audit the properties.
                                                            We found the management company misused almost
RHS is responsible for making available decent, safe,       $74,000 in reserve funds and almost $21,000 in security
sanitary, and affordable housing and community              deposits. Instead of depositing the funds in restrictive
facilities by making loans and grants for rural single-     reserve and security deposit accounts for the properties,
family housing and apartment complexes, fire stations,      the management company deposited the funds into the
libraries, hospitals, and clinics. For FY 1998, program     unrestricted operating accounts of the properties. In
funding for RHS loans and grants totaled $5 billion. As     addition, we determined the bank released the $74,000
of September 30, 1998, RHS had an outstanding direct        from nine properties’ supervised bank reserve accounts
loan portfolio totaling $29.6 billion. An additional        to the general partner without obtaining RHS
110,000 borrowers had obtained guaranteed single-           authorization.
family housing and community facilities loans totaling
$7.2 billion.                                               We recommended that RHS consult with OGC and
                                                            determine the appropriate collection effort to recover the
Reserve Accounts Underfunded and Improper                   $74,000 from the management company and the bank
Costs Charged to Projects                                   for unauthorized release and misuse of reserve funds.
                                                            In addition, RHS was to require the management
A management company allowed the reserve accounts           company to reimburse $21,000 for the misuse of
for 12 apartment complexes to accumulate a net              security deposit funds. Rural Development has issued
underfunding of over $109,000 as of December 31,            demand letters to the management company and the
1997. The underfunding occurred in part because             bank requesting reimbursement of misused reserve and
operational expenses for calendar years 1996 and 1997       security deposit funds.
of almost $37,000 were paid by two projects that should
have been covered by the management fees. In                Irregularities Attributed to Management Company
addition, the identity-of-interest maintenance company      Employees
overcharged two projects over $42,000 for unsupported
maintenance expenses in 1996 and 1997. The                  Officials of a property management company reported
maintenance company was unable to provide evidence          to Rural Development in March 1998 that over $79,000
showing that services were performed and/or that parts      in program funds had been improperly removed from
and supplies were purchased and used on those               the project accounts of 38 Louisiana and 9 Texas Rural
projects.                                                   Rental Housing (RRH) projects. Shortly after our
                                                            fieldwork began in April 1998, the company reported
We recommended that RHS develop and initiate a              further irregularities attributed to two former employees.
workout plan with the management company to restore         A company executive caused an affiliate to receive
the reserve accounts to the required balances for the       almost $64,000 from 27 Louisiana and 8 Texas RRH
underfunded projects. We also recommended that RHS          projects from payments based upon inadequately
require the management company to reimburse the             supported invoices. Another employee had allegedly
projects just over $79,000 for unallowable and              stolen checks payable to 39 Louisiana and 17 Texas
unsupported costs. Further, we recommended that             RRH projects and former tenants within those projects,
RHS review the 1997 maintenance expenses of three           totaling over $10,000.
additional projects to identify and recover any improper/




28
We further identified 41 RRH projects in Louisiana and       loans and guaranteed loans; and water and waste
9 in Texas that in January 1997 had inappropriately paid     borrowers have received a total of $22.7 billion in
another approximately $24,000 for unsupported charges        indirect loans, guaranteed loans, and grants.
to the affiliate discussed above. The management
company and the affiliate reimbursed the RRH projects        Improved Controls Needed Over Water and Waste
for the unsupported charges and alleged thefts.              Grants in Alaska

In addition, the management company could not                The Water and Waste Disposal Systems Grant Program
adequately support more than $850,000 it had caused          for Rural Alaskan Villages provides rural Alaskan
the RRH projects to pay for goods and services it            communities grants to remedy dire sanitation
provided during calendar years 1996 and 1997. Also,          conditions. We found that (1) the Rural Development
the management company’s executives did not disclose         State office already destroyed the project files for
all affiliates to Rural Development officials or maintain    several projects even though the projects had not been
adequate fire and casualty insurance for the RRH             completed and a final report issued, (2) grantees were
projects. Of the 68 Louisiana projects, 52 were              not using RUS grant funds within a reasonable time,
underinsured more than $11 million in 1997. The              and (3) grantees were not returning to RUS either the
management company did not issue IRS forms 1099 for          interest they earned on their RUS grant funds or the
1996 and 1997 payments as required, unnecessarily            excess grant funds remaining at the completion of their
exposing the RRH projects to fines and penalties.            projects.

All the incidences of improper payments and alleged          We recommended that all disbursements of grant funds
theft have been referred to an assistant U.S. attorney       requested by the grantee cover no more than 90 days,
for prosecution and are under investigation. The State       non-Rural Development agencies involved with projects
office officials generally concurred with the findings and   submit interim reports accounting for grant funds, and
will coordinate with OIG before taking any administrative    all records pertaining to grant awards be kept for a
actions.                                                     minimum of 3 years after issuance of the final report.
                                                             RUS officials agreed to implement most of our audit
RRH Project Owner Pleads Guilty to Fraud                     recommendations.

A South Dakota man was sentenced to 10 months’               Guilty Pleas in Water Authority Embezzlement Case
incarceration and ordered to pay $55,300 in restitution
for defrauding the RRH program. The man, who owned           Two former employees of a municipal water district in
five RRH projects, converted approximately $70,000           Pennsylvania pled guilty in Federal court to embezzling
from RRH accounts, which he then used to purchase            $20,520 in funds in 1996 and 1997. The two employees
precious metals. The borrower maintained that he             regularly overbilled commercial water uses, while
distrusted the Federal Government and believed that if       skimming off cash payments received at the office from
he placed the funds into a supervised bank account, the      residential customers. The water fees and cash
Federal Government would seize the funds to pay off          payments were in part collateral for a revenue bond
the national debt.                                           underwritten by USDA which allowed the district to
                                                             finance a dam and water treatment plant for the
                                                             municipality.
 RURAL UTILITIES SERVICE (RUS)

                                                              RURAL BUSINESS-COOPERATIVE SERVICE
RUS seeks to improve the quality of life in rural America
                                                              (RBS)
through a variety of loan, loan guarantee, and grant
programs for electric energy, telecommunications
(including distance learning and telemedicine), and          RBS programs are designed to enhance the quality of
water and waste projects. As of September 30, 1999,          life for all rural residents by assisting cooperatives and
electric borrowers have received over $58.2 billion in       businesses through partnership with rural communities.
direct loans and guaranteed loans; telecommunications        RBS does this by promoting a stable business
borrowers have received over $13.1 billion in indirect       environment in rural America through financial


                                                                                                                     29
assistance, sound business planning, technical           were unfounded, but that the zone’s management had
assistance, research, education, and information. The    made loans to two organizations not physically located
multiagency empowerment zone program under Rural         in the appropriate subzones though geographically
Development’s direction attempts to revitalize and       close and serving the zone’s residents. Further,
rebuild poor communities in the rural heartland.         environmental assessments had not been performed for
                                                         two of the four projects which needed assessments.
More Direction Needed in Rio Grande Valley               Also, USDA needs to provide RGVEZ specific guidance
Empowerment Zone                                         on how to comply with National Environmental Policy
                                                         Act procedures. The zone officials and the Texas State
The Rio Grande Valley Empowerment Zone (RGVEZ) in        Rural Development Agency concurred with the findings.
Texas received $40 million in flexible social service    Rural Development’s National Office of Community
block grant funds from the Department of Health and      Development has requested guidance from OGC
Human Services. Because of a complaint regarding         regarding USDA oversight responsibility for the
RGVEZ’s business affairs, we reviewed the zone’s         empowerment zones’ implementation of the National
operations. We determined that most of the allegations   Environmental Policy Act.




30
Financial, Administrative, and
Information Technology

 FINANCIAL MANAGEMENT                                        accurate financial statements and cost data necessary
                                                             to manage departmental programs. To aid in correcting
                                                             these problems, the Department is implementing the
Internal Control Review Results in a Qualified               Foundation Financial Information System (FFIS) to
Opinion                                                      replace the Central Accounting System (CAS) at OCFO/
                                                             NFC.
Our review of the internal control structure at the Office
of the Chief Financial Officer’s National Finance Center     The OCFO appropriated fund and Forest Service
(OCFO/NFC) in effect as of September 30, 1997,               Regions 6, 10, and Pacific Northwest Experiment
resulted in an adverse opinion because of weaknesses         Station began using FFIS on October 1, 1997, and RMA
in such critical areas as Office of Management and           began on October 1, 1998. The remaining offices of FS
Budget (OMB) Circular No. A-130 certifications, access       and FSIS are scheduled to begin using FFIS on
and security over OCFO/NFC systems, system                   October 1, 1999, and the remaining USDA agencies
documentation, and accounting reconciliations and            are scheduled to begin in FY 2004.
adjustments. During FY 1998, in response to our audit,
OCFO/NFC began comprehensive, time-phased                    Our current review disclosed that several CAS
corrective actions, which we assisted with and actively      weaknesses, and prior decisions by OCFO
monitored. Based on improvements, we issued a                management to interface many of the OCFO/NFC
qualified opinion as of September 30, 1998.                  “feeder” systems, have resulted in substantial FFIS
                                                             implementation problems. For example, the FFIS
Our review disclosed that material weaknesses                “feeder” system accounting posting models are not
remained in the areas of accounting adjustments and          sufficiently documented to enable an effective and
reconciliations, systems documentation, and                  efficient evaluation and have been found, in some
conformance with the U.S. Standard General Ledger.           cases, to be in error. There is a critical need to
In addition, the U.S. General Accounting Office (GAO)        consolidate and reengineer the functions of the OCFO/
noted that serious access control weaknesses affected        NFC “feeder” systems. These systems are old and
OCFO/NFC’s ability to prevent and/or detect                  labor intensive, frequently provide bad data, and are
unauthorized changes to payroll and other payment            expensive to operate.
data or computer software, to control electronic access
to Thrift Savings Program account information, and to        In addition, we found other FFIS problems, including
restrict physical access to sensitive computing areas.       weaknesses in FFIS trial balance reporting from FFIS
                                                             and internal controls over FFIS manual adjustments and
We received general concurrence with our                     reconciliations.
recommendations that OCFO/NFC improve the controls
related to (1) documentation associated with OMB             OCFO has made numerous and substantive changes to
Circular No. A-130 reviews; (2) third-party reviews of       correct the serious impediments to the effective
payments made through the Miscellaneous Payment              implementation of FFIS. For example, an entire new
System; (3) accounting for Online Payments and               project team, with recognized expertise in project
Collections; (4) reconciliations of personal property,       implementation, has been brought in. However, much
suspense, Fund Balance with Treasury, and accounts           work remains, and it is important that identified
receivable balances; (5) the manual adjustment               deficiencies be corrected in a timely manner.
process; (6) the production deviation process;
(7) accounting for allowance for losses on accounts          We recommended that OCFO, in consultation with the
receivables; and (8) systems documentation.                  Assistant Secretary for Administration and departmental
                                                             users, analyze the need for each “feeder” system and,
Effective Implementation of FFIS Will Reduce                 based on the analysis, develop long-range plans to
USDA’s Many Financial Management Problems                    consolidate, integrate, and/or reengineer the “feeder”
                                                             systems. In addition, we recommended that OCFO take
Since 1992, we have reported on the many severe and          corrective actions on the weaknesses we identified and
longstanding financial management problems within the        develop a project management process that will ensure
Department. These problems have significantly                all identified problems are corrected in a timely manner.
impacted the ability of Department officials to prepare      OCFO generally concurred with our review results.

                                                                                                                   31
Controls Needed Over Servicing and Accountability            long-term in nature, with many completion dates in the
of Sold Rural Housing Loans                                  2001 and 2002 timeframes. Recent updates to the plan
                                                             have now extended completion dates into the 2003
In 1987, Rural Development (then the Farmers Home            timeframe.
Administration) received $1.75 billion from the sale of
approximately 141,000 single family housing loans, as        The extension is primarily due to revised implemen-
well as a subordinate interest in a Trust. Our review        tation schedules for remedial actions planned by Rural
disclosed that control policies and procedures need to       Development to correct system nonconformances. For
be developed by Rural Development in order to provide        several nonconformances, the mission area reported
reasonable assurance that (1) it is receiving the funds it   that delays in implementing the New Guaranteed Loan
is entitled to from the Trust, (2) the Government funds      System have extended the completion dates from
advanced to the Trust were properly used, and (3) the        September 2001 to September 2003. Other interim
balance of $14 million retained by the Trust is              dates in Rural Development’s plan have been revised
necessary for continued Trust operations.                    for reasons such as higher priority automation initiatives
                                                             (Y2K) and redesign of the Community, Utilities, and
Further, although Rural Development agreed previously        Business System and the Program Loan Accounting
to review the Trust operations on at least a 3-year cycle,   System.
it has not performed any reviews since 1993. This
reduces Rural Development’s assurance that the loans         Financial Consulting Continues To Assist Forest
sold are being serviced in accordance with the policies      Service
and terms of the Trust agreement.
                                                             During our initial FY 1999 consulting visits to 17 FS
We recommended that Rural Development (1) establish          regional, forest, and station offices, we continued to find
internal control policies and procedures relating to         data quality deficiencies in (1) the capitalized costs of
oversight of Trust fund operations, and (2) perform a        real and personal property and (2) accounts payable
review of funds advanced to and received by the Trust        and undelivered orders. FS continues to make progress
to assure that funds used by the Trust were proper and       with its physical inventories of real and personal
that the Government funds retained by the Trust are still    property. The noted exceptions are identical to those
appropriate.                                                 reported to FS in prior years’ consulting reports. In
                                                             addition, our initial review of trial balances from the new
Federal Financial Management Improvement Act                 FFIS accounting system data warehouse identified
(FFMIA) of 1996                                              numerous abnormal account balances and out-of-
                                                             balance conditions. These conditions, if not corrected,
Not all major components of USDA currently comply            would preclude improvement in FS’ financial statements
with FFMIA requirements. As required by law, a               and audit opinion.
departmentwide remediation plan has been developed
which includes the various actions needed to achieve         • Real and Personal Property - We continued to find
compliance and the planned completion dates. In                high rates of misstated and unsupported capitalized
addition to the overall plan, the Department has detailed      costs and in-service dates for real and personal
plans for CCC, Rural Development, and FFIS.                    property. We also advised FS of our concerns that
Individual remediation plans have also been requested          many field units will not be able to complete physical
from FS and NFC, but these plans have not been                 inventories of real properties (roads, bridges, trails)
finalized.                                                     and adequately verify capitalized costs and in-service
                                                               dates with prescribed supporting documentation by
FFMIA requires that we report semiannually on the              September 30, 1999.
Department’s adherence to intermediate dates
established in its remediation plan. In our last             • Accounts Payable and Undelivered Orders - These
semiannual report, we stated that the Department was           accounts, as of September 30, 1998, continued to
in compliance with its overall plan and that the plan was      have high error rates.




32
• FFIS Trial Balances - We reviewed FS trial balance         each of their Departmental Priority Systems; and direct
  reports generated from the FFIS data warehouse for         NFC to obtain formal data exchange agreements with
  the period ending February 1999. Our initial reviews       its data exchange partners.
  found widespread noncompliance with the Standard
  General Ledger requirements. These noncompliance           OCIO promptly reinstructed the agencies regarding the
  conditions indicate problems with data quality and/or      importance of appropriately documenting all phases of
  FFIS processing and must be researched to                  the testing activities and required the agencies to, at a
  determine their cause. Without correction, these           minimum, conduct an IV&V for each of the
  deficiencies could preclude FS from preparing              Departmental Priority Systems. Additional actions
  financial statements which present fairly its financial    regarding data exchange agreements at NFC are still to
  condition and results of operations.                       be provided.

We advised FS to provide additional guidance to field
                                                              ADMINISTRATIVE OPERATIONS
units on real property accounting requirements and
issue supplemental or revised pages to its desk guide
where needed. We also advised FS to research the             More Needed To Assist Former Employees on
cause of abnormal and out-of-balance conditions in           Workers’ Compensation in Returning to Work
FFIS accounts and are assisting FS with this work.
                                                             The Federal Employees’ Compensation Act provides
                                                             workers’ compensation benefits for Federal civilian
 INFORMATION TECHNOLOGY
                                                             employees who sustain injuries or diseases while on the
                                                             job. In a 1992 audit, we reported that USDA and its
Agency Validation Efforts Need Improvement                   agencies were not monitoring long-term claimants or
                                                             providing them job placement assistance once they had
Year 2000 testing is essential to provide reasonable         recovered from their injuries. In our current evaluation,
assurance that new or modified systems process dates         we found the agencies had not arranged for periodic
correctly and will not jeopardize an agency’s ability to     reviews of all long-term claimant files, as had been
perform core business operations after the millennium        indicated would occur in the response to our 1992 audit
change. Until thorough system validation has been            report.
performed, there is no certainty that changes are
complete or correct.                                         Not until July 1998 had an agency performed extensive
                                                             reviews of its long-term claimant files. Our followup
We found that not all of the agencies were adequately        review showed that a projected 168 of the work-capable
documenting the system validation efforts or having          claimants from the prior audit continued to receive
Independent Verification and Validation (IV&V) reviews       workers’ compensation benefits, estimated at
performed for each of the Departmental Priority              $19.2 million from 1992 through 1998, and will receive
Systems. We did find that most of the agencies had           an estimated $51.2 million over their remaining life
taken appropriate actions to resolve the previously          expectancies if measures are not taken to return them
reported weaknesses in identifying, monitoring, and          to work.
testing data exchanges with the data exchange
partners. One notable exception was at NFC, where we         We recommended that agencies review the cases of all
concluded that additional efforts were needed to obtain      long-term claimants and provide job placement
formal data exchange agreements and carry out end-           assistance to those with work capabilities. We made a
to-end testing with the Center’s data exchange partners.     series of recommendations to improve controls over the
We recommended OCIO immediately instruct the                 program. The agency generally agreed with our
agencies that all testing activities must be appropriately   recommendations.
documented; clarify to each agency the requirement
that, at a minimum, agencies are to conduct an IV&V for




                                                                                                                    33
 GOVERNMENT PERFORMANCE AND                                Forest Service
 RESULTS ACT (GPRA) OF 1993
                                                           We examined a segment of the FS’ Strategic Goal to
                                                           “ensure organizational effectiveness.” Specifically, we
Results of Reviews                                         reviewed Management Initiative 3.4., “A sound financial
                                                           system which supports resource decisions with timely,
In response to a Congressional request, we initiated an    accurate information and financial expertise.”
ongoing examination of agencies’ activities pursuant to
GPRA. The results of review for this period follow.        We have performed annual financial statement audits of
                                                           FS since 1990. For the past 3 years we have issued a
Food and Nutrition Service                                 disclaimer of opinion because the agency has been
                                                           unable to prepare statements which can be audited, as
We examined a segment of FNS’ Strategic Goal dealing       thoroughly discussed in previous semiannual reports
with the Child and Adult Care Food Program (CACFP).        and congressional hearings. Accordingly, we conclude
Specifically, we reviewed Goal 4.2.1., “Better targeted    the initiative developed to rectify this weakness to be
and higher quality program reviews of sponsors and         valid. The primary performance measures put forth by
providers by State agencies” and the associated            FS to fulfill this initiative are (1) FFIS implemented,
Indicator “Number of reviews conducted.”                   (2) Real Property Inventory completed, (3) Timber Sale
                                                           Accounting system implemented, and (4) financial
We have provided extensive audit coverage of CACFP         management reports developed.
for the past several years. A substantial entry on our
work in CACFP can be found in our section on               The indicators associated with these measures lack
Presidential initiatives. Our reviews have disclosed       quantitative data; instead, they are prescribed on an
significant, widespread problems which have greatly        attribute (yes/no) basis. FFIS represents a critical
undermined the integrity of the program. Our audits        corrective action to achieve the initiative; the Plan calls
found that a primary cause for this extensive fraud and    for three pilot units to be on FFIS by FY 1999, and this
abuse was minimal State oversight of sponsor activities.   was accomplished. The Plan states the Real Property
Accordingly, we determined that the GPRA Goal              Inventory was to be completed in FY 1999; the agency
reviewed is valid. The performance measure, however,       asserted in August 1999 that this target had been met.
is vague and does not include any quantitative             We have not yet verified completion of this essential
measurement data (the FY 1999 and FY 2000                  measure but will do so in our performance of the
indicators were cited only as “to be determined”).         FY 1999 financial audit. The Timber Sale Accounting
                                                           system measure is misstated in that the system was
Due to the absence of quantitative data, we could not      implemented several years ago; our discussions with
verify the data sources. Further, the GPRA Plan notes      agency officials disclosed that the measure actually
that in order to achieve the Performance Goal, FNS         dealt with the system being made Y2K compliant, an
must (1) develop and issue program integrity               action only tangentially related to the Goal. Lastly, the
regulations and guidance materials to States, (2)          development of the financial management reports,
increase its oversight of State agency program             again according to agency officials (the Plan is
management, and (3) conduct a study to obtain data on      nondescriptive in this regard) pertains to FFIS reports.
current State and sponsor performance.                     Although reports have been generated by the new
                                                           system, the measure does not appear to be discrete
According to agency officials, program integrity           from the first one delineated.
regulations have been developed but are awaiting
review by OGC. The proposed regulations are                Risk Management Agency
expected to be issued in draft by the 1st quarter of
FY 2000, and in final form by September 2000. FNS          We examined a segment of RMA’s Strategic Plan
has developed guidance materials; for example,             Objective to “Improve program integrity and protect
information highlighting the most vulnerable program       taxpayers’ funds.” Specifically, we reviewed Goal 4,
areas has been forwarded to State agencies for their       “Reduce program vulnerabilities.”
use. In addition, a training program for State reviewers
and USDA personnel involved in CACFP has been
established.
34
We have performed numerous audits in recent years             have not verified, but plan to do so in upcoming audits.
that have evaluated RMA’s policies and procedures,            The “error rate” indicator is valid in terms of a measure
program delivery systems, and compliance and                  to reduce vulnerabilities. We question the data
oversight activities. Our reviews have disclosed              reported, however, in that for every year depicted in the
inherent program vulnerabilities to dollar losses and         plan (1997 through 2000) the error rate shown is
inefficiencies. As a result, we concluded that the GPRA       4.83 percent. In our estimation, targeted rates need to
Goal is valid. The key indicators supporting this Goal        be developed which would show program improvement
are (1) crop insurance loss ratio and (2) total error rate,   (i.e., a reduction in the rate). Further, the rate itself may
including the rate of erroneous payments, rate of             need to be reassessed; our analysis disclosed that the
program vulnerability, and rate of program delivery           methodology used to establish the rate excluded actual
errors.                                                       production history data, which could significantly skew
                                                              results. Further, GAO questioned the adequacy of the
The crop insurance loss ratio, which measures actuarial       sample size taken by RMA in compiling the data; too
soundness, and the associated quantitative targets            limited a sample can inflate variability and hence reduce
appear to be reasonable. The source of the data               accuracy.
reported is the agency’s claims data base, which we




                                                                                                                        35
Employee Integrity Investigations


A top priority for OIG is the investigation of serious            or supervised while performing his NRCS duties and
allegations of employee misconduct. During the past               concealed doing so by putting the sales in the business
6 months, such investigations resulted in 12 convictions          name of his wife’s beauty salon. As part of his official
of current or former USDA employees and 38 personnel              duties, he also designed and supervised conservation
actions. Some recent investigations follow.                       plans for fencing on farms but recommended a business
                                                                  partner to do the fencing work and then assisted the
FSA Employee Pleads Guilty to Theft of $99,000 in                 partner in putting in the fencing and shared in the
Government Property                                               profits. In addition, he designed, supervised, and
                                                                  approved conservation plans for a partnership with his
In Alexandria, Virginia, an FSA employee pled guilty to           wife and concealed his interest from USDA. Further, he
embezzling over $99,000 in travel advance funds and               wrongfully benefited from the sale of logs that were
was sentenced to 5 months’ incarceration, 3 years’                removed from flood cleanup projects he supervised for
supervised release, and restitution of $99,085. From              NRCS. After his conviction, the employee resigned
February 1997 to June 1998, the employee submitted                from NRCS and is awaiting sentencing.
24 false travel authorization/advances for payment, all
using names of relatives or associates. The employee
was removed from FSA.

FSA Employee Who Embezzled $276,000 Is
Sentenced

As previously reported, a Kansas FSA county office
program assistant pled guilty to charges that she had
issued CCC checks to herself, disguised as
administrative payments, to embezzle more than
$276,000. She has since been sentenced to serve                   NRCS Employee Convicted of Theft
18 months in prison, followed by 3 years of supervised
release, and was ordered to pay restitution of $276,680.          A search warrant at the home of an NRCS computer
                                                                  specialist in Illinois revealed that the employee had
NRCS Employee Convicted of Conflict of Interest                   stolen U.S. Air Force computer components and a
and Conversion of Property                                        USDA computer not assigned to him. The employee
                                                                  was convicted and sentenced to 12 months’ probation
An NRCS District Conservationist was convicted in                 for theft. The individual was previously a civilian
North Carolina on charges of conflict of interest and the         employee with the Air Force. This investigation was
conversion of property of landowners to his own use. In           worked jointly with the U.S. Air Force, Office of Special
a criminal conflict of interest, he sold filter fabric material   Investigations.
to landowners for conservation plans that he designed




36
Statistical Data


 AUDITS WITHOUT MANAGEMENT DECISION
The following audits did not have management decisions made within the 6-month limit imposed by Congress.
Narratives for new entries follow this table. An asterisk (*) indicates that an audit is pending judicial, legal, or
investigative proceedings which must be completed before the agency can act to complete management decisions.


 New Since Last Reporting Period


                                                                                                        Amount With
                                                                                    Total Value           No Mgmt.
                                                                                    at Issuance           Decision
Agency             Date Issued                       Title of Report                (in dollars)         (in dollars)

AARCC                01/27/99                    1. FY 1997 AARCC Financial                   0                    0
                                                    Statements (37401-2-FM)

ARS                  02/08/99                    2. JA Jones Management Services 160,233                    160,233
                                                    CY’s 1994 and 1995 Incurred
                                                    Cost (02017-4-At)

FAS                  03/30/99                    3. PVO Grant Fund                  18,629,558          18,629,558
                                                    Accountability (50801-6-At)

FNS                  12/07/98                    4. CACFP - Family Day Care            338,100              338,100
                                                    Services, Inc. -
                                                    West Palm Beach, FL
                                                    (27601-7-At)*

FS                   01/05/99                    5. Timber Sale Environmental                 0                    0
                                                    Analysis Requirements
                                                    (08801-10-At)

                     02/23/99                    6. FY 1998 FS Financial                      0                    0
                                                    Statements (08401-8-At)

FSA                  03/30/99                    7. Payment Limitation -               881,924              881,924
                                                    Mitchell County, GA
                                                    (03006-20-At)*

Multiagency          02/01/99                    8. FY 1998 Rural Development                 0                    0
                                                    Financial Statements
                                                    (50401-28-FM)

NRCS                 03/22/99                    9. Controls Over the Award and               0                    0
                                                    Administration of Cooperative
                                                    Agreements (10015-1-Hy)




                                                                                                                       37
                                                                          Amount With
                                                           Total Value      No Mgmt.
                                                           at Issuance      Decision
Agency   Date Issued       Title of Report                 (in dollars)    (in dollars)

OCFO       03/25/98    10. Verification of Data Input          27,259         27,259
                           Into NFC Payroll/Personnel
                           System (50099-11-FM)

           02/22/99    11. FY 1998 USDA Consolidated                 0             0
                           Financial Statements
                           (50401-30-FM)

RHS        11/09/98    12. RRH - Nationwide Initiative         41,509         41,509
                           in NE - Seldin Company,
                           Omaha, NE (04801-4-KC)*

           01/08/99    13. RRH Program - Dujardin             195,694       195,694
                           Property Management, Inc.,
                           Everett, WA (04801-5-SF)*

           01/15/99    14. RRH - Initiative in North          183,957       183,957
                           Carolina (04801-4-At)

           01/25/99    15. RRH Program Operations at            5,670          4,431
                           College View Apts., Belton
                           TX (04099-8-Te)

           02/13/99    16. RRH - Initiative in North          109,653       109,653
                           Carolina (04801-7-At)

           03/12/99    17. RRH - Nationwide Initiative -       82,324         81,646
                           Pennsylvania (04801-3-Hy)

           03/25/99    18. Guaranteed Rural Housing 139,220,122             215,030
                           Loan Program (04601-2-At)

           03/31/99    19. RRH - Nationwide Initiative in 233,958           233,958
                           NE - Bosley Management, Inc.,
                           Sheridan, WY (04801-3-KC)

RMA        12/16/98    20. Nursery Crop Insurance           3,963,468      3,963,468
                           Program (05099-2-At)

           03/10/99    21. FY 1998 FCIC Financial                    0             0
                           Statements Report on
                           Management Issues
                           (05401-6-FM)

           03/15/99    22. Prevented Planting of              158,430       158,430
                           1996 Insured Crops
                           (05601-5-Te)


38
                                                                                                        Amount With
                                                                                  Total Value             No Mgmt.
                                                                                  at Issuance             Decision
Agency             Date Issued                       Title of Report              (in dollars)           (in dollars)


 Previously Reported but Not Yet Resolved


These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual
Reports to Congress. Agencies have been informed of actions that must be taken to reach management decision, but
for various reasons, the actions have not been completed. The appropriate Under and Assistant Secretaries have
been notified of those audits without management decisions.


AARCC                09/30/96                    23. AARC Cooperative Agreement              0                    0
                                                     With Agro-Fibers, Inc.
                                                     (34099-1-At)*

AMS                  09/24/98                    24. National Fluid Milk Processor           0                     0
                                                     Promotion Program (01001-3-Ch)*

CSREES               03/27/97                    25. Use of 4-H Program Funds -         5,633                      0
                                                     University of Illinois
                                                     (13011-1-Ch)*

                     03/31/98                    26. National Research Initiative 32,757,862            32,757,862
                                                     Competitive Grants Program
                                                     (13601-1-At)

                     09/30/98                    27. Use of CSREES Grant Funds 1,424,983                  1,239,314
                                                     by Prairie View A&M
                                                     University (13011-2-Te)

FNS                  03/21/97                    28. Establishment and              1,908,988             1,908,988
                                                     Collection of Food
                                                     Stamp Claims (27002-2-Te)

                     07/08/97                    29. Reinvestment of              50,150,541            25,157,504
                                                     Quality Control
                                                     Penalties (27099-4-At)

                     09/22/97                    30. Child and Adult Care              56,296                56,296
                                                     Food Program - Sponsor
                                                     Abuses (27601-7-KC)*

                     09/30/97                    31. Food Stamp Program -                    0                     0
                                                     Reporting Accuracy of
                                                     Claims Activity
                                                     (27601-12-Ch)




                                                                                                                       39
                                                                            Amount With
                                                          Total Value         No Mgmt.
                                                          at Issuance         Decision
Agency   Date Issued       Title of Report                (in dollars)       (in dollars)

FS         07/18/96    32. FY 1995 FS Financial     1,150,183,750        1,150,183,750
                           Statements (08401-4-At)*

           09/30/96    33. Real and Personal Property              0                 0
                           Issues (08801-3-At)*

           03/31/97    34. Research Cooperative              468,547          468,547
                           and Cost Reimbursable
                           Agreements (08601-18-SF)*

           07/13/98    35. FY 1997 FS Financial                    0                 0
                           Statements (08401-7-At)*

           08/05/98    36. Humboldt/Toiyabe National               0                 0
                           Forest Land Adjustment
                           Program (08003-2-SF)*

           08/19/98    37. Review of FS’ Retroactive               0                 0
                           Redistribution (08801-4-Hq)*

           08/26/98    38. Improvements on the                     0                 0
                           Zephyr Cove Land
                           Exchange (08003-4-SF)

           09/24/98    39. FS Assistance Agreements 7,098,026               3,086,023
                           With Nonprofit Organizations
                           (08801-2-Te)

FSA        09/30/93    40. Disaster Payments               5,273,795        1,482,759
                           Mitchell County, GA
                           (03097-2-At)*

           03/31/95    41. Disaster Assistance               484,972          364,552
                           Program, 1993 Nonprogram
                           Crops, Yuba County, CA
                           (03600-26-SF)

           09/07/95    42. A&B Professional                  628,976          628,976
                           Consulting, Inc.
                           (03004-1-At)

           09/07/95    43. Large Operators’ Compliance       165,069          165,069
                           With Payment Limitation
                           Provisions in Stephenson
                           County, IL, and Rock
                           County, WI (03099-8-KC)



40
                                                                           Amount With
                                                            Total Value      No Mgmt.
                                                            at Issuance      Decision
Agency        Date Issued      Title of Report              (in dollars)    (in dollars)


                09/18/95    44. Management of the           75,175,410        909,437
                                Dade County, FL, FSA
                                Office (03006-1-At)

                09/28/95    45. Disaster Assistance          1,805,828      1,805,828
                                Payments, Lauderdale, TN
                                (03006-4-At)*

                01/02/96    46. 1993 Crop Disaster           2,469,829      2,418,167
                                Payments, Brooks/
                                Jim Hogg Cos., Texas
                                (03006-1-Te)*

                05/02/96    47. Disaster Assistance          2,177,640      2,145,533
                                Program - 1994,
                                Thomas County, GA
                                (03006-13-At)*

                09/18/96    48. Emergency Feed Program         626,182        115,425
                                in Texas (03601-7-Te)*

                09/30/96    49. 1994 Disaster Assis-         2,666,383      2,601,692
                                tance Program - Maine
                                (03601-1-Hy)*

                03/31/98    50. Reorganization of Payment      542,807        542,807
                                Limitation in Hidalgo
                                County, TX (03601-23-Te)

                04/30/98    51. Reeves County Office         1,365,640        421,152
                                Operations - Texas
                                (03801-36-Te)

                06/11/98    52. Noninsured Assistance          110,679         76,160
                                Program Payments for 1996
                                Crop Year Losses
                                (03601-24-Te)

                09/30/98    53. Wool and Mohair Payment      2,432,112      2,432,112
                                Limitation in Val Verde
                                County, TX (03099-20-Te)*

Multiagency     09/30/98    54. CSREES - Managing            3,824,211      3,281,534
                                Facilities Construction
                                Grants (50601-5-At)




                                                                                        41
                                                                        Amount With
                                                         Total Value      No Mgmt.
                                                         at Issuance      Decision
Agency   Date Issued       Title of Report               (in dollars)    (in dollars)

OCFO       07/16/98    55. FY 1997 USDA Financial                 0              0
                           Statements (50401-24-FM)*

RHS        08/10/98    56. Self-Help Housing Program -            0              0
                           Grizzly Hollow Project,
                           Galt, CA (04801-2-SF)*

RMA        09/30/97    57. Crop Insurance on             15,082,744       444,910
                           Fresh Market Tomatoes
                           (05099-1-At)

           03/03/98    58. Transfer of CAT                        0              0
                           Policies to Reinsured
                           Companies (05099-1-KC)

           04/10/98    59. Crop Insurance                   126,787        78,996
                           Claims (05601-1-KC)

           07/14/98    60. Quality Control for                    0              0
                           Crop Insurance
                           Determinations
                           (05099-2-KC)




42
 Audits Without Management Decision - Narrative for New Entries


1. FY 1997 AARCC Financial Statements, Issued                  5. Timber Sale Environmental Analysis
   January 27, 1999                                               Requirements, Issued January 5, 1999

All of the report’s 32 recommendations remain without          One recommendation remains unresolved. We
management decisions. AARCC’s response did not                 recommended that FS report the environmental analysis
address full and timely corrective actions. We have            and implementation monitoring process as a material
advised AARCC of the specific information needed on            weakness in the Department’s Federal Manager’s
each recommendation.                                           Financial Integrity Act (FMFIA) report. FS responded
                                                               that the appropriate time to assess whether its
2. JA Jones Management Services, CY’s 1994 and                 environmental analysis and implementation monitoring
   1995 Incurred Cost, Issued February 8, 1999                 would be reported is following completion of specific
                                                               reviews it plans of the environmental analysis process.
The Defense Contract Audit Agency reported that the            We concurred with FS’ alternative action; however, to
contractor overclaimed $160,223 due to excessive               reach management decision, we need to review FS’
overhead cost allocations. OIG and the Agricultural            plans and agree that its analysis will provide sufficient
Research Service (ARS) provided the contractor                 information to make a decision whether to include or
opportunities to justify its claim, but the contractor could   exclude this issue in its FMFIA report.
not support the overclaim amounts. ARS agrees with
the audit findings but is negotiating with the contractor.     6. FY 1998 FS Financial Statements, Issued
                                                                  February 23, 1999
3. PVO Grant Fund Accountability, Issued
   March 30, 1999                                              FS and OIG personnel have been working to improve
                                                               FS accounting systems and processes and to adopt
We questioned the use of CCC commodities and ad-               new accounting standards issued by OMB. One
ministrative funds totaling $18.3 million to one private       primary objective is to enable FS to prepare timely and
voluntary organization (PVO) and $264,439 of admin-            accurate financial statements and ultimately receive
istrative funds paid to three other PVO’s. We also found       unqualified audit opinions on those statements. FS has
that FAS needed to strengthen operating controls over          begun to implement a new real property accounting
the Food for Progress Program. We are currently                system and will begin converting field offices to the new
assessing FAS’ most recent response to determine if            departmental general ledger system. Implementation
management decision is now achieved for all recom-             timeframes for (a) the new general ledger, (b) improve-
mendations.                                                    ments in FS accounting subsystems, and (c) new
                                                               accounting standards will extend into FY 2000. FS is
4. CACFP - Family Day Care Services, Inc. - West               continuing to work toward improving its financial
   Palm Beach, FL, Issued December 7, 1998                     statements. However, much work remains including the
                                                               need to (1) ensure that sufficient, full-time staff is
The audit questioned program payments and admin-               assigned to compile and complete the financial
istrative costs paid to the sponsor because of inflated        statements timely and accurately and (2) ensure that
meal counts and unaccounted for disbursements. As a            regions and units adhere to agencywide accounting
result of the audit, the sponsor was terminated from the       policies and procedures. We continue to work closely
program. Because the sponsor’s activities are under            with FS to ensure that longstanding deficiencies in its
criminal investigation, any corrective actions must be         accounting systems and controls are eliminated.
coordinated with the investigation.




                                                                                                                     43
7. Payment Limitation - Mitchell County, GA,                 Appropriations Act exempted it from the Federal Grants
   Issued March 30, 1999                                     and Cooperative Agreements Act of 1977. We do not
                                                             agree with this assessment and have informed NRCS
The audit identified 12 producers who received               an OGC legal opinion will be needed for clarification.
questionable 1996 and 1997 Agricultural Market               We also advised them of what is needed to reach
Transition Act payments totaling $881,924 partly by          management decision on the other recommendations.
using schemes or devices to evade maximum payment
limitation provisions. The matter was referred to OIG        10. Verification of Data Input Into NFC Payroll/
Investigations in May 1999, and further action is                Personnel System, Issued March 25, 1998
pending the completion of the investigation.
                                                             Of the 21 recommendations, 7 have not reached
8. FY 1998 Rural Development Financial                       management decision. The agency has been advised
   Statements, Issued February 1, 1999                       of the information needed, which includes implemen-
                                                             tation dates for three of the recommendations and more
The open recommendation relates to compliance with           specific information on the actions planned or taken for
the Debt Collection Improvement Act and addresses            the remaining recommendations.
reporting debt to Treasury for offset, as well as
developing a methodology to maximize the usage of            11. FY 1998 USDA Consolidated Financial
tools for barring ineligible borrowers from receiving            Statements, Issued February 22, 1999
Federal loans. Rural Development cites a legal opinion
that current regulations do not provide authority to         Seven recommendations remain without management
report debt related to defaulted guaranteed loans and        decision. We reported that the Department’s ability to
repurchased guaranteed loans. We do not believe the          provide accurate and reliable information on its financial
legal opinion prohibits revising the regulations. Also,      operations is impacted by many serious financial
Rural Development’s response did not adequately              management system problems. The Department’s
address developing a methodology to prevent loans to         existing financial information system comprises six
ineligible borrowers.                                        administrative and program accounting systems
                                                             operated by various USDA agencies. This system does
9. Controls Over the Award and Administration of             not always process and report departmentwide financial
   Cooperative Agreements, Issued March 22, 1999             information accurately. The system was not integrated
                                                             with its subsystems and did not substantially comply
There was no documentation to determine the selection        with the three requirements of the Federal Financial
process used to award cooperative agreements. In             Management Improvement Act. We also reported
addition, NRCS has not competitively awarded                 weaknesses in the processes and procedures used by
cooperative grants exceeding $75,000 as required by          the Department’s lending agencies to estimate and
law. We recommended that NRCS develop procedures             reestimate loan subsidy costs since 1992.
for awarding cooperative agreements that would ensure
the best use of Government funds in accomplishing            12. RRH - Nationwide Initiative in NE - Seldin
program objectives, documenting the selection process,           Company, Omaha, NE, Issued November 9, 1998
and when applicable, providing a justification that a non-
competitive award is in the best interest of the             The results of the audit were referred for investigation.
Government. We also recommended NRCS develop                 RHS and the Rural Development State office have been
procedures to ensure that cooperative agreements             instructed to take no further action pending completion
exceeding $75,000 are competitively awarded.                 of the investigation.

NRCS has developed a handbook; however, its                  13. RRH Program - Dujardin Property Management,
response did not provide specific citations allowing us to       Inc., Everett, WA, Issued January 8, 1999
assess whether the handbook might be responsive to
our recommendations. NRCS also indicated that it             The results of the audit were referred for investigation.
could not require mandatory use for all employees. In        RHS and the Rural Development State office have been
addition, NRCS believed that the 1999 Agricultural           instructed to take no further action pending completion
                                                             of the investigation.

44
14. RRH - Initiative in North Carolina, Issued             17. RRH - Nationwide Initiative - Pennsylvania,
    January 15, 1999                                           Issued March 12, 1999

The results of the audit were referred to an assistant     The management agent improperly charged
U.S. attorney (AUSA) for investigation. The AUSA has       unallowable and duplicate operating costs to eight
decided not to pursue civil action. We are working with    projects. The Pennsylvania State Rural Development
Rural Development to ensure the management                 Office issued a letter requiring reimbursement of the
company refunds $183,957 to nine projects for              reserve accounts. The management agent met with
excessive operating and maintenance costs.                 State office officials and provided additional information.
                                                           We continue to work with RHS to determine the proper
15. RRH Program Operations at College View Apts.,          amount to be reimbursed.
    Belton, TX, Issued January 25, 1999
                                                           18. Guaranteed Rural Housing Loan Program,
We can reach management decision on this audit when            Issued March 25, 1999
we receive acknowledgment of payment or that an
accounts receivable has been established for recovery      On August 23, 1999, RHS provided additional
of the excessive interest and rental assistance received   information to support management decision for the
by the property on behalf of ineligible college student    nine open recommendations. We are reviewing this
tenants living in subsidized units.                        new information.

16. RRH - Initiative in North Carolina, Issued             19. RRH - Nationwide Initiative in NE - Bosley
    February 13, 1999                                          Management, Inc., Sheridan, WY, Issued
                                                               March 31, 1999
At the time the report was issued, we requested that
RHS delay administrative action since the management       The results of the audit were referred for investigation.
company had been referred for possible civil action. On    RHS and the Rural Development State office have been
June 9, we advised RHS that an AUSA had decided not        instructed to take no further action pending completion
to pursue civil action. Thus, RHS was free to take         of the investigation.
appropriate administrative action. As a result of a
complex fee-splitting arrangement, the borrowers were      20. Nursery Crop Insurance Program, Issued
paid $9,000 of the projects’ funds with an additional          December 16, 1998
$97,501 at risk of being paid. We need documentation
that the borrowers have been advised, in writing, to       The audit disclosed that the Nursery Crop Insurance
refund to the projects $9,000 plus any subsequent          Program had been poorly managed by the reinsured
payments.                                                  companies and abused by sales agents, loss adjusters,
                                                           and producers. The report included 16 recommen-
Projects were improperly charged $3,955 for borrowers’     dations addressing the problems disclosed, with
administrative expenses. Also, the management agent        questionable costs totaling $4 million. Management
collected $3,152 in unallowable costs charged to the       decisions have not been reached on seven of the
projects. To reach management decision, we need to         recommendations, for which we have requested
be provided the dates by which the management              additional information.
company will be required to review the annual reports,
provide corrected reports, and refund any excess
management and unallowable costs charged to the
projects.




                                                                                                                    45
                                                             (2) involved in double cropping, (3) not planted due to
21. FY 1998 FCIC Financial Statements Report on              management decision, (4) that exceeded the FSA base
    Management Issues, Issued March 10, 1999                 acreage, and (5) not suitable for agricultural production.
                                                             Our review also disclosed questioned payments of
The remaining recommendation requires the agency to          $23,818 on three policies with acreage under water,
continue working with OGC to implement the                   idle, or otherwise not suitable for agricultural production.
recommended corrective actions for transferring
Catastrophic Risk Protection policies to private             We further found cases where loss adjusters adjusted
reinsured companies. In order to achieve management          claims when they had conflicts of interest with the
decision, the agency needs to provide a timeframe for        insureds. We recommended that action be taken to
completing actions and has been unable to establish it.      have reinsured companies improve the loss adjustment
We continue to work with the agency.                         and internal control reviews of prevented planted
                                                             claims. Also, we recommended that RMA establish
22. Prevented Planting of 1996 Insured Crops,                controls to prevent adjusters from adjusting claims when
    Issued March 15, 1999                                    they have conflicts of interest with the insureds. We
                                                             further recommended collection of the $158,430 in
We reported that controls were not in place to prevent       questioned claims. RMA has initiated actions to obtain
abuse, as insureds were not required to report losses        management decisions on the audit recommendations.
until after substitute crops were planted. Therefore,
there was not sufficient time for insured companies to       We reached management decision on two of the
inspect acreages to determine whether disaster               report’s six recommendations on March 15. However,
conditions actually caused prevented planting. We            RMA has not replied to any of the remaining open audit
questioned claims totaling $134,612 on 30 policies that      recommendations. We are waiting for additional
included acreage (1) left flooded for crawfish production,   information and documents from RMA.




46
 Indictments and Convictions

Between April 1 and September 30, 1999, OIG                 Indictments and Convictions
completed 257 investigations. We referred 197 cases         April 1 - September 30, 1999
to Federal, State, and local prosecutors for their
decision.                                                   Agency       Indictments        Convictions*

During the reporting period, our investigations led to      AMS                        4                  30
208 indictments and 332 convictions. The period of          APHIS                      3                   8
time to obtain court action on an indictment varies         ARS                        1                   1
widely; therefore, the 332 convictions do not necessarily   FSA                       17                  26
relate to the 208 indictments. Fines, recoveries/           FNS                      171                 251
collections, restitutions, claims established, and cost     FS                         1                   0
avoidance resulting from our investigations totaled         NRCS                       2                   5
about $31.5 million.                                        OIG                        1                   0
                                                            RBS                        2                   3
The following is a breakdown, by agency, of indictments     RHS                        4                   3
and convictions for the reporting period.                   RMA                        2                   3
                                                            SEC                        0                   1
                                                            Other**                    0                   1
                                                                                     ___                 ___
                                                            Totals                   208                 332

                                                            *
                                                             This category includes pretrial diversions.
                                                            **
                                                             This category includes cases involving non-USDA/affiliated agencies
                                                            (one conviction).




                                                                                                                             47
 The Office of Inspector General Hotline


The OIG Hotline serves as a national receiving point for
reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement,
and abuse in USDA programs and operations. During
this reporting period, the OIG Hotline received
764 complaints, which included allegations of participant
fraud, employee misconduct, and mismanagement, as
well as opinions about USDA programs. Figure 3
displays the volume and type of the complaints we
received, and figure 4 displays the disposition of those
complaints.




Figure 3                                                     Figure 4

Hotline Complaints                                           Disposition of Complaints
April 1 to September 30, 1999                                April 1 to September 30, 1999
(Total = 764)
                                                                                     Referred to
                                      Reprisal                   Referred to       USDA Agencies     Complaint
                                        1      Bribery         FNS for Tracking     for Response     Referred to
                      Participant                 2                  200                 296        State Agency
                        Fraud                                                                            57
                         445




                                                   Health/
    Waste/                                         Safety
Mismanagement                                        7
                                       Opinion/                Referred to
     83       Employee               Information             USDA or Other                             Referred to
              Misconduct                  80                  Agencies for Filed Without Referred to Other Law
                 146
                                                              Information-    Referral-  OIG Audit or Enforcement
                                                             No Response Insufficient Investigations Agencies
                                                                Needed      Information for Review         6
                                                                  134            22          49




48
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests
 for the Period April 1 to September 30, 1999

Number of FOIA/PA Requests Received              315

Number of FOIA/PA Requests Processed:            319

 Number of Requests Granted in Full        169
 Number of Requests Granted in Part         84
 Number of Requests Not Granted             69

Reasons for Denial:

  No Records Available                  28
  Requests Denied in Full               24
  Referrals                             18
_______________________________________________

Requests for OIG Reports From Congress
and Other Government Agencies

  Received                             111
  Processed                            105
_______________________________________________

Appeals Processed                                   10

 Appeals Granted                             0
 Appeals Denied in Full                     10
 Appeals Denied in Part                      0

_______________________________________________

Number of OIG Reports Released                   346
in Response to Requests


NOTE: A request may involve more than one report.




                                                                   49
Appendix I


                                           INVENTORY OF AUDIT REPORTS ISSUED
                                            WITH QUESTIONED COSTS AND LOANS

                                                                               DOLLAR VALUES

                                                                    QUESTIONED         UNSUPPORTED*
                                                         NUMBER   COSTS AND LOANS     COSTS AND LOANS

A. FOR WHICH NO MANAGEMENT                                 68       $272,805,220        $48,003,010
   DECISION HAD BEEN MADE
   BY APRIL 1, 1999


B. WHICH WERE ISSUED DURING                                22        $69,975,055        $26,686,847
   THIS REPORTING PERIOD

     TOTALS                                                90       $342,780,275        $74,689,857

C. FOR WHICH A MANAGEMENT                                  32
   DECISION WAS MADE DURING
   THIS REPORTING PERIOD

     (1) DOLLAR VALUE OF
         DISALLOWED COSTS

         RECOMMENDED FOR RECOVERY                                    $10,911,924         $1,173,639

         NOT RECOMMENDED FOR RECOVERY                                $72,215,285           $39,832

     (2) DOLLAR VALUE OF                                             $12,922,516         $2,626,463
         COSTS NOT DISALLOWED


D. FOR WHICH NO MANAGEMENT                                 58       $246,746,433        $70,854,550
   DECISION HAS BEEN MADE BY
   THE END OF THIS REPORTING
   PERIOD

     REPORTS FOR WHICH NO                                  41       $197,225,182        $44,350,333
     MANAGEMENT DECISION WAS
     MADE WITHIN 6 MONTHS
     OF ISSUANCE

*Unsupported values are included in questioned values.




50
Appendix II


                          INVENTORY OF AUDIT REPORTS ISSUED
                WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                   NUMBER      DOLLAR VALUE

A. FOR WHICH NO MANAGEMENT           21          $238,276,781
   DECISION HAD BEEN MADE
   BY APRIL 1, 1999


B. WHICH WERE ISSUED DURING          12          $131,551,974
   THE REPORTING PERIOD

  TOTALS                             33          $369,828,755

C. FOR WHICH A MANAGEMENT            11
   DECISION WAS MADE DURING
   THE REPORTING PERIOD

  (1) DOLLAR VALUE OF                            $106,764,899
      DISALLOWED COSTS

  (2) DOLLAR VALUE OF                              $9,750,947
      COSTS NOT DISALLOWED


D. FOR WHICH NO MANAGEMENT           22          $253,312,909
   DECISION HAS BEEN MADE BY
   THE END OF THE REPORTING
   PERIOD

  REPORTS FOR WHICH NO               15          $205,127,794
  MANAGEMENT DECISION WAS
  MADE WITHIN 6 MONTHS
  OF ISSUANCE




                                                                       51
Appendix III


                                          SUMMARY OF AUDIT REPORTS RELEASED
                                         BETWEEN APRIL 1 AND SEPTEMBER 30, 1999

DURING THE 6-MONTH PERIOD BETWEEN APRIL 1 AND SEPTEMBER 30, 1999, THE OFFICE OF INSPECTOR
GENERAL ISSUED 55 AUDIT REPORTS, INCLUDING 5 PERFORMED BY OTHERS.

THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

                                                                     QUESTIONED    UNSUPPORTEDa     FUNDS BE
                                                          REPORTS      COSTS          COSTS          PUT TO
AGENCY                                                    RELEASED   AND LOANS      AND LOANS      BETTER USE

AGRICULTURAL RESEARCH SERVICE                                1           $20,504        $18,356
FARM SERVICE AGENCY                                          8       $26,041,615    $20,248,829        $87,422
RURAL HOUSING SERVICE                                        6        $1,814,109                   $12,006,101
RISK MANAGEMENT AGENCY                                       3          $615,771                   $20,000,000
FOREST SERVICE                                               2          $203,118       $203,118    $12,000,000
RURAL UTILITIES SERVICE                                      1        $2,528,212     $2,518,083
NATURAL RESOURCES CONSERVATION
  SERVICE                                                    2                                       $103,421
OFFICE OF THE CHIEF FINANCIAL OFFICER                        1
FOOD SAFETY AND INSPECTION SERVICE                           1
FOOD AND NUTRITION SERVICE                                  17       $19,544,412     $3,697,343    $35,961,765
ANIMAL AND PLANT HEALTH                                      1
  INSPECTION SERVICE
RURAL BUSINESS-COOPERATIVE SERVICE                           1
MULTIAGENCY                                                 11       $19,207,314        $1,118     $51,393,265

TOTALS                                                      55       $69,975,055    $26,686,847   $131,551,974

TOTAL COMPLETED:
  SINGLE AGENCY AUDIT                                       33
  MULTIAGENCY AUDIT                                          7
  SINGLE AGENCY EVALUATION                                  11
  MULTIAGENCY EVALUATION                                     4

TOTAL RELEASED NATIONWIDE                                   55

TOTAL COMPLETED UNDER CONTRACTb                              5

TOTAL SINGLE AUDIT ISSUEDc                                   4

a
  Unsupported values are included in questioned values.
b
  Indicates audits performed by others.
c
  Indicates audits completed as Single Audit.




52
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN APRIL 1 AND SEPTEMBER 30, 1999

                                                                      QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                            COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                               AND LOANS      AND LOANS    BETTER USE


AGRICULTURAL RESEARCH SERVICE

 02-017-0002-SF   CLOSEOUT AUDIT-GLOBAL ASSOCIATES, OAKLAND, CA          $20,504       $18,356
 1999/06/25

   TOTAL: AGRICULTURAL RESEARCH SERVICE                           1      $20,504       $18,356

FARM SERVICE AGENCY

 03-006-0013-CH   EVALUATION OF SECURITY AND REPAYMENT OF               $521,606
 1999/08/10       COMMODITY LOANS
 03-099-0031-KC   PRICE SUPPORT LOANS IN NEBRASKA                       $178,911      $164,274
 1999/04/23
 03-099-0034-KC   LOAN DEFICIENCY PAYMENTS
 1999/05/25
 03-601-0016-KC   SMALL HOG OPERATION PAYMENT
 1999/07/27
 03-601-0028-TE   1996 FAIR ACT PROVISIONS AFFECTING FARM LOAN        $25,341,098   $20,084,555
 1999/05/17       PROGRAMS DIRECT LOAN SERVICING
 03-601-0029-TE   ADMINISTRATIVE OFFSET                                                               $87,422
 1999/05/04
 03-601-0032-TE   CROP YEAR 1996 NONINSURED CROP DISASTER
 1999/05/21       ASSISTANCE PAYMENTS - NATIONWIDE
 03-801-0037-TE   LIVESTOCK ASSISTANCE PROGRAM
 1999/07/23

   TOTAL: FARM SERVICE AGENCY                                     8   $26,041,615   $20,248,829       $87,422

RURAL HOUSING SERVICE

 04-099-0007-TE   MFH PROGRAM - MEDLOCK SOUTHWEST MANAGEMENT             $94,823
 1999/06/03       CORPORATION
 04-801-0001-FM   SERVICING AND ACCOUNTABILITY OF SOLD RURAL
 1999/09/23       HOUSING LOANS
 04-801-0004-HY   RRH - NATIONWIDE INITIATIVE - NEW YORK                $259,079
 1999/05/20
 04-801-0006-SF   RRH PROGRAM - RON TABER (OWNER/MANAGER),              $346,685
 1999/04/20       OLYMPIA, WA
 04-801-0011-TE   RRH INITIATIVE - CALHOUN PROPERTY MGMT. (LA)         $1,034,459                  $11,896,622
 1999/09/23
 04-801-0012-TE   RRH INITIATIVE - HY-CITE MANAGEMENT (TX)               $79,063                     $109,479
 1999/05/26

   TOTAL: RURAL HOUSING SERVICE                                   6    $1,814,109                  $12,006,101

RISK MANAGEMENT AGENCY

 05-001-0002-TE   CROP INSURANCE FOR PIMA COTTON, POPCORN, AND                                     $20,000,000
 1999/04/16       CORN FOR CROP YEARS 1997 AND 1998 IN TEXAS
 05-099-0002-TE   CROP YEAR 1998 POTATO CROP INSURANCE CLAIMS           $615,771
 1999/08/05       IN GAINES COUNTY, TX
 05-099-0006-KC   SERVICING OF CAT POLICIES
 1999/09/30

   TOTAL: RISK MANAGEMENT AGENCY                                  3     $615,771                   $20,000,000

FOREST SERVICE

 08-017-0005-KC   MANAGEMENT ASSISTANCE CORP OF AMERICA -               $203,118      $203,118
 1999/09/29       CONTRACT CLOSEOUT




                                                                                                             53
                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                      BETWEEN APRIL 1 AND SEPTEMBER 30, 1999

                                                                     QUESTIONED    UNSUPPORTED     FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS         PUT TO
RELEASE DATE       TITLE                                             AND LOANS      AND LOANS     BETTER USE


08-801-0005-SF     THUNDERBIRD LODGE LAND EXCHANGE                                                 $12,000,000
 1999/04/30

     TOTAL: FOREST SERVICE                                       2      $203,118      $203,118     $12,000,000

RURAL UTILITIES SERVICE

 09-005-0002-SF    WATER AND WASTE DISPOSAL SYSTEMS GRANTS IN         $2,528,212     $2,518,083
 1999/07/02        ALASKA

     TOTAL: RURAL UTILITIES SERVICE                              1    $2,528,212     $2,518,083

NATURAL RESOURCES CONSERVATION SERVICE

 10-006-0001-CH    REVIEW OF SELECTED WASTE MANAGEMENT
 1999/08/31        SYSTEMS IN OHIO
 10-017-0003-KC    ZAK DIRT, INC. - CONTRACT AUDIT                                                   $103,421
 1999/08/16        FT. COLLINS, CO

     TOTAL: NATURAL RESOURCES CONSERVATION SERVICE               2                                   $103,421

OFFICE OF THE CHIEF FINANCIAL OFFICER

 11-401-0004-FM    FY 1998 NATIONAL FINANCE CENTER REVIEW OF
 1999/09/29        INTERNAL CONTROL STRUCTURE

     TOTAL: OFFICE THE CHIEF FINANCIAL OFFICER                   1

FOOD SAFETY AND INSPECTION SERVICE

 24-099-0001-CH    FEDERAL/STATE MEAT AND POULTRY INSPECTION
 1999/05/17        AGREEMENTS

     TOTAL: FOOD SAFETY AND INSPECTION SERVICE                   1

FOOD AND NUTRITION SERVICE

 27-010-0016-SF    CACFP - B.R.I.D.G.E.S., POMONA, CA                     $2,828
 1999/08/19
 27-010-0017-SF    CACFP - A FINE DAY CARE, THOUSAND OAKS, CA.           $85,464                      $58,501
 1999/07/08
 27-010-0019-HY    NATIONAL SCHOOL LUNCH PROGRAM IN                  $11,535,456
 1999/09/21        PUERTO RICO
 27-017-0016-HY    AMERICAN BANK NOTE COMPANY
 1999/06/28
 27-099-0012-SF    NUTRITION ASSISTANCE PROGRAM IN AMERICAN              $16,612       $16,612
 1999/09/27        SAMOA - PAYMENTS TO VENDORS
 27-099-0017-CH    CACFP - DISCOVERY CHILD CARE, INC.,                  $969,579
 1999/07/30        LA CROSSE, WI
 27-099-0018-CH    MONITORING OF THE ELECTRONIC BENEFITS TRANSFER
 1999/09/28        SYSTEM IN MINNESOTA
 27-601-0007-SF    CHILD AND ADULT CARE FOOD PROGRAM -                                             $34,551,576
 1999/08/23        NATIONAL REPORT
 27-601-0008-AT    REGIONAL FOOD STAMP EMPLOYMENT AND TRAINING        $6,834,587     $3,680,731     $1,057,549
 1999/09/15        PROGRAM
 27-601-0009-KC    FOOD STAMP PROGRAM - CROSS STATE MATCH                $99,886                     $294,139
 1999/07/29
 27-601-0009-SF    CACFP - QUALITY OF AUDIT WORK - CALIFORNIA
 1999/08/05        DEPARTMENT OF EDUCATION




54
                           AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                    BETWEEN APRIL 1 AND SEPTEMBER 30, 1999

                                                                     QUESTIONED    UNSUPPORTED    FUNDS BE
AUDIT NUMBER                                                           COSTS          COSTS        PUT TO
RELEASE DATE      TITLE                                              AND LOANS      AND LOANS    BETTER USE


 27-601-0014-CH   STORAGE AND CONTROLS OVER USDA-DONATED
 1999/05/26       COMMODITIES - CALIFORNIA
 27-601-0016-CH   ADEQUACY OF RETAILER MONITORING EFFORTS
 1999/07/12
 27-601-0019-CH   CONTROLS OVER USDA-DONATED COMMODITIES NSLP AND
 1999/09/30       SBP
 27-801-0003-KC   MONITORING EBT SYSTEM DEVELOPMENT IN MISSOURI
 1999/07/26
 27-801-0003-SF   STATE OF OREGON - EBT SYSTEM DEVELOPMENT
 1999/09/27       REVIEW
 27-801-0004-KC   MONITORING COLORADO EBT SYSTEM DEVELOPMENT
 1999/09/30

   TOTAL: FOOD AND NUTRITION SERVICE                           17    $19,544,412    $3,697,343    $35,961,765

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

 33-099-0003-CH   PLANT PROTECTION AND QUARANTINE BORDER AND
 1999/08/31       PORT INSPECTIONS

   TOTAL: ANIMAL AND PLANT HEALTH                               1
         INSPECTION SERVICE

RURAL BUSINESS-COOPERATIVE SERVICE

 34-801-0003-TE   RIO GRANDE VALLEY EMPOWERMENT ZONE
 1999/09/22

   TOTAL: RURAL BUSINESS-COOPERATIVE SERVICE                    1

MULTIAGENCY

 50-018-0013-SF   A-133 AUDIT OF THE CITY OF SAN JOSE
 1999/06/03       FYE JUNE 30, 1998
 50-020-0069-HY   GOVERNOR’S OFFICE FOR ELDERLY AFFAIRS,                   $449
 1999/08/30       A-128, SFYE SEPTEMBER 30, 1996
 50-020-0070-HY   COMMONWEALTH OF PUERTO RICO - DEPT. OF FAMILY          $1,118        $1,118
 1999/08/26       A-128, JUNE 30, 1994 AND JUNE 30, 1995
 50-021-0001-SF   A-133 STATE OF HAWAII - DEPARTMENT OF
 1999/09/27       AGRICULTURE, FYE JUNE 30, 1998
 50-099-0006-KC   WETLANDS RESERVE PROGRAM SPECIAL WETLAND AND
 1999/05/25       ENVIRONMENTAL EASEMENT ENHANCEMENT ACTIVITIES
 50-099-0009-AT   CONTROL OF WORKER’S COMPENSATION COSTS             $19,205,747                  $51,169,958
 1999/08/10
 50-099-0021-FM   REVIEW OF YEAR 2000 PROJECT - PHASE III
 1999/09/30
 50-801-0001-HQ   REVIEW OF THE DEPARTMENT’S FINAL ACTION
 1999/07/09       PROCESS
 50-801-0002-TE   FOOD CONSUMER PROGRAMS - RESEARCH,
 1999/07/26       DEMONSTRATION, AND EVALUATION PROJECTS
 50-801-0007-FM   EFFECTIVE IMPLEMENTATION OF FFIS WILL REDUCE
 1999/09/29       USDA’S MANY FINANCIAL MANAGEMENT SYSTEM PROBLEMS
 50-801-0009-TE   CROP LOSS DISASTER ASSISTANCE PROGRAM IN                                          $223,307
 1999/08/02       LOUISIANA - PHASE II

   TOTAL: MULTIAGENCY                                          11    $19,207,314       $1,118     $51,393,265

   TOTAL: RELEASE - NATIONWIDE                                 55    $69,975,055   $26,686,847   $131,551,974




                                                                                                            55
Abbreviations of Organizations
AARCC    Alternative Agricultural Research and Commercialization Corporation
AMS      Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
ARS      Agricultural Research Service
CCC      Commodity Credit Corporation
CSREES   Cooperative State Research, Education, and Extension Service
EU       European Union
FAS      Foreign Agricultural Service
FBI      Federal Bureau of Investigation
FCIC     Federal Crop Insurance Corporation
FDA      U.S. Food and Drug Administration
FNS      Food and Nutrition Service
FS       Forest Service
FSA      Farm Service Agency
FSIS     Food Safety and Inspection Service
GAO      U.S. General Accounting Office
IRS      Internal Revenue Service
NFC      National Finance Center
NRCS     Natural Resources Conservation Service
OCFO     Office of the Chief Financial Officer
OGC      Office of the General Counsel
OIG      Office of Inspector General
OMB      Office of Management and Budget
RBS      Rural Business-Cooperative Service
RGVEZ    Rio Grande Valley Empowerment Zone
RHS      Rural Housing Service
RMA      Risk Management Agency
RUS      Rural Utilities Service
SEC      Office of the Secretary
UNR      University of Nevada, Reno
USDA     U.S. Department of Agriculture
